No. _______

In The

Supreme Court of the United States
DOROTHY NESKE, Individually and as Parent
and Natural Guardian of G.S.,
CHRISTOPHER NESKE, Individually and as Parent
and Natural Guardian of G.S.,
v.

Petitioners,

NEW YORK CITY DEPARTMENT OF EDUCATION,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Second Circuit

APPENDIX

Rory J. Bellantoni, Esq.
Counsel of Record
BRAIN INJURY RIGHTS GROUP, LTD.
300 East 95th Street, Suite 130
New York, New York 10128
(646) 850-5035
rory@pabilaw.org
Counsel for Petitioners
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

i
TABLE OF CONTENTS
Summary Order of the United States Court of
Appeals for the Second Circuit in No. 19-4068,
Neske, et al. v. NYC Dept. of Education, filed
10/2/20 ...................................................................... A1
Order of the United States District Court for
the Southern District of New York in 19 Civ.
2933 (VEC), Neske, et al. v. NYC Dept. of
Education, filed 11/7/19 ........................................... A6
Opinion and Order of the United States
District Court for the Southern District of
New York in 19 Civ. 2933 (VEC), Neske, et al.
v. NYC Dept. of Education, filed 8/2/19 ................ A15
Summary Order of the United States Court of
Appeals for the Second Circuit in No. 19-2540,
Soria, et al. v. NYC Dept. of Education, filed
10/28/20 .................................................................. A35
Opinion of the United States Court of Appeals
for the Second Circuit in 19-1662, De Paulino
v. NYC Dept. of Education, et al. and 19-1813,
Carrillo, et al. v. NYC Dept. of Education,
filed 5/18/20 ............................................................ A41
Order on Rehearing of the United States
Court of Appeals for the Second Circuit in No.
19-4068, Neske, et al. v. NYC Dept. of
Education, filed 11/5/20 ......................................... A76

A1
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
SUMMARY ORDER
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 2nd day of
October, two thousand twenty.
PRESENT: GUIDO CALABRESI, ROBERT A.
KATZMANN, SUSAN L. CARNEY, Circuit Judges.
______________________________
DOROTHY NESKE, individually and as parent and
natural guardian of A.N., and CHRISTOPHER
NESKE, individually and as parent and natural
guardian of A.N.,
Plaintiffs-Appellants,
v.
No. 19-4068-cv
NEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant-Appellee.
For Plaintiffs-Appellants: KARL ASHANTI (Peter G.
Albert, on the brief),Brain Injury Rights Group, Ltd.,
New York, NY.
For Defendant-Appellee: ERIC LEE, Assistant
Corporation Counsel (Richard Dearing, Scott Shorr,
Assistant Corporation Counsel, on the brief), for
James E. Johnson, Corporation Counsel of the City
of New York, New York, NY.

A2
Appeal from the United States District Court for
the Southern District of New York (Caproni, J.).
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the orders and judgment of the
district court are AFFIRMED.
Plaintiffs-appellants Dorothy Neske and
Christopher Neske appeal from the orders of the
United States District Court for the Southern
District of New York (Caproni, J.) denying their
application for a preliminary injunction and their
motion for reconsideration and from the judgment of
the district court dismissing their lawsuit. We
assume the parties’ familiarity with the underlying
facts, the procedural history of the case, and the
issues on appeal.
Without the consent of defendant-appellee New
York City Department of Education (“City”), the
Neskes unilaterally transferred their child with a
disability, A.N., from a private school called the
International Academy of Hope (“iHOPE”) to another
private school called the International Institute for
the Brain (“iBRAIN”) for the 2018-2019 school year.
Shortly thereafter, they initiated an administrative
proceeding to challenge the adequacy of A.N.’s
individualized educational program (“IEP”), and
sued the City under the stay-put provision of the
Individuals with Disabilities Education Act
(“IDEA”), 20 U.S.C. § 1415(j), to seek public funding
for the tuition at iBRAIN during the pendency of the
IEP challenge.
We recently confronted an identical set of
material facts and legal issues in Ventura de Paulino
v. New York City Department of Education, 959 F.3d

A3
519 (2d Cir. 2020).1 There, we held that “[a] parent
cannot unilaterally transfer his or her child and
subsequently initiate an IEP dispute to argue that
the new school’s services must be funded on a
pendency basis.” Id. at 536. That conclusion squarely
applies to the instant appeal. Nevertheless, the
Neskes put forth several arguments as to why
Ventura de Paulino is not controlling, all of which we
find meritless.
First, the Neskes implicitly suggest that we, in
Ventura de Paulino, misinterpreted the stay-put
provision by confusing a change in schools for a
change in educational programs; that is, they argue
that moving A.N. to iBRAIN did not constitute a
change in “placement” for purposes of the stay-put
provision. That argument is merely a backdoor
attempt at relitigating the key issue that we decided
in Ventura de Paulino, where we explicitly rejected
the argument advanced by the plaintiffs in that case
that a unilateral change in children’s enrollment
does not constitute a change in the students’
pendency placement. See id. at 533–36.
Second, the Neskes contend that Ventura de
Paulino is meaningfully distinguishable in that the
City was deemed to have chosen a school for the
students at issue for pendency purposes there,
whereas here the City did not make such a choice for
A.N. Not so. In both Ventura de Paulino and this
case, iHOPE became the students’ pendency
placement not at the City’s instigation, but rather by
operation of law after the City chose not to appeal
In fact, the same attorneys represent the plaintiffs in both
appeals, and the briefs filed here for the Neskes are largely
carbon copies of the briefs filed for the plaintiff in Ventura de
Paulino.

1

A4
the rulings of impartial hearing officers holding that
iHOPE was an appropriate placement for these
students. See id. at 532. Just as we deemed the City
to have implicitly chosen iHOPE as the pendency
placement for the students in Ventura de Paulino,
the same applies here.
Third, the Neskes contend that this case falls
under footnote 65 of Ventura de Paulino, where we
reserved decision as to a situation “where the school
providing the child’s pendency services is no longer
available and the school district either refuses or
fails to provide pendency services to the child.” Id. at
534 n.65 (emphasis added). But that situation is no
more present here than it was in Ventura de
Paulino. In both appeals, iHOPE continued to be
available to the students at issue and the City did
not refuse or fail to provide pendency services at
iHOPE;2 rather, the plaintiffs unilaterally moved
their children from their pendency placement to a
new private school. See id. at 527.
We have considered the Neskes’ other arguments
as to why Ventura de Paulino is not controlling and
find them to be without merit. And the Neskes have
In their supplemental letter brief, the Neskes argue that
“because iHOPE drastically changed after the 2017-2018
[school year], with respect to, inter alia, the delivery of related
services and the composition of the student body, staff and
administration, it was unavailable for A.N. to receive the same
educational program he had previously received at iHOPE for
purposes of pendency.” Appellants’ Letter Br., dated Aug. 7,
2020, at 5. However, this factual allegation is not in their
complaint, nor have the Neskes sought leave to amend their
complaint to add it, either in the district court or on appeal. We
accordingly decline to consider whether the Neskes’ appeal
could be distinguished from Ventura de Paulino on that basis.
See Pani v. Empire Blue Cross Blue Shield, 152 F.3d 67, 71 (2d
Cir. 1998).

2

A5
raised no arguments on appeal that were not
advanced by the plaintiffs in Ventura de Paulino and
resolved by this Court. Accordingly, the orders and
judgment of the district court are AFFIRMED.
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe, Clerk

A6
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19-CV-2933 (VEC)
DATE FILED: 11/07/2019
DOROTHY NESKE and CHRISTOPHER
NESKE, as Parents and Natural Guardians of
A.N., and DOROTHY NESKE and
CHRISTOPHER NESKE, Individually,
Plaintiffs,
-againstNEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant.
ORDER
VALERIE CAPRONI, United States District Judge:
The parents and guardians of a minor, A.N., seek
reconsideration of an order dismissing their action,
which sought to compel the New York City
Department of Education to fund A.N.’s attendance
at the International Institute for the Brain
(“iBrain”), a private school for children with special
needs. Because Plaintiffs have not pointed to any
controlling law or factual information that the Court
has overlooked, Plaintiffs’ motion is denied.

A7
BACKGROUND
The relevant facts and procedural history are
fully set forth in this Court’s original decision. See
Neske v. New York City Dep’t of Educ., No. 19-CV2933, 2019 WL 3531959, at *1–2 (S.D.N.Y. Aug. 2,
2019). Within 14 days of that decision, Plaintiffs
moved forreconsideration pursuant to Rule 59(e) of
the Federal Rules of Civil Procedure and Rule 6.3 of
the Local Civil Rules for the Southern District of
New York. Pl. Br. (Dkt. 39) at 2.
DISCUSSION
“The standard for granting [] a motion [for
reconsideration] is strict, and reconsideration will
generally be denied unless the moving party can
point to controlling decisions or data that the court
overlooked.”1 Shrader v. CSX Transp., Inc., 70 F.3d
255, 257 (2d Cir. 1995); see also Sigmon v. Goldman
Sachs Mortg. Co., 229 F. Supp. 3d 254, 257 (S.D.N.Y.
2017) (“[A] party moving for reconsideration must
set forth ‘the matters or controlling decisions which
counsel believes the Court has overlooked.’” (quoting
Local Civil Rule 6.3)). As such, “a motion to
reconsider should not be granted where the moving
party seeks solely to relitigate an issue already
decided.” Schrader, 70 F.3d at 257. The movant also
“may not advance new facts, issues, or arguments
not previously presented to the Court.” Sigmon, 229
F. Supp. 3d at 257 (citations omitted). A motion for
The standard for reconsideration pursuant to Rule 59(e) is
“identical” to that under Local Civil Rule 6.3 Sigmon v.
Goldman Sachs Mortg. Co., 229 F. Supp. 3d 254, 256 (S.D.N.Y.
2017) (collecting cases).

1

A8
reconsideration may be granted if movant
demonstrates “an intervening change of controlling
law, the availability of new evidence, or the need to
correct a clear error or prevent manifest injustice.”
Virgin Atl. Airways, Ltd. v. Nat’l Mediation Bd., 956
F.2d 1245, 1255 (2d Cir. 1992) (internal citations
and quotation marks omitted).
In their brief supporting reconsideration,
Plaintiffs argue that the Court misapplied T.Y. v.
New York City Dep’t of Educ., 584 F.3d 412 (2d Cir.
2009), and Concerned Parents & Citizens for the
Continuing Educ. at Malcolm X (PS 79) v. New York
City Bd. of Educ., 629 F.2d 751 (2d Cir. 1980). Pl. Br.
(Dkt. 39) at 3–4. In response to the Court’s
observation that Plaintiffs had taken T.Y.’s
definition of “educational placement” “out of
context,” Neske, 2019 WL 3531959, at *6, Plaintiffs
argue that context, in fact, does not matter. See Pl.
Br. (Dkt. 39). at 4 (“Thus, regardless of the context,
the definition of educational placement . . . is
constant and does not change depending on whether
it is being used by a school district or parent.”)
(emphasis in original). As the Court has previously
explained, however, context is incredibly important
because T.Y. stands for the proposition that
“educational placement” must be defined in a
manner that gives school districts, not parents,
reasonable flexibility in choosing where educational
services would be provided to students with
disabilities. See Neske, 2019 WL 3531959, at *7.
And, as the Court has also explained, a context-less
definition would actually lead to instability of
placement, which would undermine the very purpose
of the pendency provision contained in the
Individuals with Disabilities Education Act (IDEA).

A9
See id. (“Otherwise, the two sides could engage in an
endless tug-of-war, each seeking to countermand the
other, causing the student to be repeatedly
reassigned or transferred.”). In other words,
Plaintiffs are merely relitigating an issue that the
Court has already decided, rather than pointing to
any controlling law that the Court has overlooked.
Perhaps sensing that context actually does
matter, Plaintiffs next attempt to distinguish T.Y. by
contending that, in this case, DOE did not offer
iHope as a pendency placement, whereas the school
district in T.Y. offered the parents two choices. See
Pl. Br. (Dkt. 39) at 4–5. The Court, however, sees
nothing in the T.Y. decision that compels school
districts to offer parents multiple options, and
Plaintiffs have not pointed to any authority for the
proposition that school districts must “offer” a
pendency placement at all. Rather, as the language
in the pendency provision indicates, the “pendency
placement”2 is generally not something to be offered
but is instead the default placement that already
exists, by virtue of an implemented IEP or another
prior placement that was mutually agreed-upon.3
The term “pendency placement” is used interchangeably with
the statutory term, “then-current educational placement.” See
Arlington Cent. Sch. Dist. v. L.P., 421 F. Supp. 2d 692, 696–97
(S.D.N.Y. 2006).

2

Because a “pendency placement” is the default placement,
rather than something to be offered by the school district,
Plaintiffs’ argument that the Court based its decision on the
“false premise” that the Defendant chose iHope as the
pendency placement is misplaced. The Court never concluded
that Defendant offered iHope as a pendency placement—that
result was determined by the original Impartial Hearing
Officer (IHO), who issued the Findings of Fact and Decision
that agreed with Plaintiffs’ original placement of A.N. at iHope

3

A10
See 20 U.S.C. § 1415(j) (“[T]he child shall remain in
the then-current educational placement.”). Courts in
this circuit have therefore ascertained the pendency
placement by “look[ing] to: (1) ‘the placement
described in the child’s most recently implemented
IEP’; (2) ‘the operative placement actually
functioning at the time when the stay put provision
of the IDEA was invoked’; or (3) ‘the placement at
the time of the previously implemented IEP.’”4 See
Doe v. E. Lyme Bd. of Educ., 790 F.3d 440, 452 (2d
Cir. 2015) (quoting Mackey ex rel. Thomas M. v. Bd.
of Educ. For Arlington Cent. Sch. Dist., 386 F.3d 158,
163 (2d Cir. 2004)). And as this Court noted in the
original decision, when a child has an implemented
IEP, there is no need to examine the “operative
and setting forth A.N.’s program there. See Neske, 2019 WL
3531959, at *1. By virtue of the un-appealed decision of the
IHO, theprogram at iHope became the last implemented and
last agreed-upon placement. Far from mistakenly holding
thatDefendant offered iHope as a placement, the Court
specifically noted that Defendant had proposed a publicschoolplacement for 2018–19, and that Plaintiff could have
enforced iHope as the “then-current educational
placement”pursuant to the pendency provision, rather than
unilaterally withdrawing A.N. from iHope and insisting that
theywere entitled to pendency placement at iBrain. See Neske,
2019 WL 3531959, at *1 n.1.
As they did in their original briefing, Plaintiffs make much
hay of the idea that the lack of a “pendency placement” is an
“impossible result,” but that proposition, even if accepted, does
nothing to advance Plaintiffs’ case. Pl. Br. (Dkt. 39) at 9
(quoting Gabel ex rel. L.G. v. Bd. of Educ. of Hyde Park Cent.
Sch. Dist., 368 F. Supp. 2d 313, 325 (S.D.N.Y. 2005) (applying
same test as set forth in Doe and Mackey)). A.N. does have a
pendency placement—it is the program set forth in the FOFD
rendered by IHO Sharyn Finkelstein, who approved Plaintiffs’
choice of iHope.
4

A11
placement.”5 See Neske, 2019 WL 3531959, at *5 n.3
(citing Carrilo v. New York City Dep’t of Educ., 384
F. Supp. 3d 441, 464 (S.D.N.Y. 2019) (“Courts tend
to rely on the ‘operative placement’ factor in
circumstances in which there was no priorimplemented IEP that might guide a determination
of a ‘current educational placement.’”) (internal
citation omitted)). In other words, while nothing
forbids the school district and the parents from
agreeing to a placement pending litigation, the
school district is not required to propose an interim
placement because, by default, courts will determine
the “pendency placement” using the child’s education
history.
Next, Plaintiffs cite to the holding in Carrilo,
which is not controlling, and which the Court
declined to follow. See Pl. Br. (Dkt. 39) at 5.
Plaintiffs also cite to Soria v. New York City Dep’t of
Educ., 397 F. Supp. 3d 397 (S.D.N.Y. 2019), see Pl.
Br. (Dkt. 39) at 6, another non-controlling decision,
which agreed with Carrilo and was issued after this
Court’s decision. Because these cases are neither
controlling nor overlooked, they cannot support a
motion for reconsideration and instead simply reflect
yet another attempt to relitigate what this Court has
already decided.
Plaintiffs also make two other arguments that
are far afield and non-dispositive. They take issue
with the Court’s characterization of Plaintiffs’
argument, made in their opposition to Defendant’s
motion to dismiss, that the Court is required to
accept as true their conclusory allegation that iHope
For that reason, Plaintiffs’ argument that the Court failed to
consider “operative placement” is meritless. See Pl. Br. (Dkt.
39) at 2-3, 8–9.

5

A12
and iBrain are substantially similar. Pl. Br. (Dkt. 39)
at 6. Nevertheless, that is exactly what they argued
in their opposition memorandum. See Pl. Opp. to
Mot. to Dismiss (Dkt. 24) at 4 (“Therefore, taking
Plaintiffs’ allegation concerning the substantial
similarity of the two educational programs as true,
as this Court must for purposes of DOE’s motion . . .
.”). Plaintiffs now contend that their allegations are
far from conclusory because of testimony submitted
in support of their motion for a preliminary
injunction—but that is neither here nor there, as the
Court resolved the case on Defendant’s motion to
dismiss Plaintiffs’ complaint. Plaintiffs also take
issue with the Court’s recitation of the reality (a
quotation of two other judges in this district) that, if
Plaintiffs were to receive court-mandated funding,
they would not be required to reimburse the school
district if their action were ultimately meritless. See
Pl. Br. (Dkt. 39) at 9–10. Plaintiffs do not dispute the
accuracy of the Court’s statement. And, in any event,
the availability vel non of reimbursement provides
context but it is not critical to the Court’s conclusion,
which hinges instead on the Second Circuit’s
decisions in T.Y. and Concerned Parents.
Finally, Plaintiffs make two related arguments—
Defendant did not show that iHope was available as
a placement for 2018–19,6 and Defendant did not
The Court’s original decision agreed with the Impartial
Hearing Office that Plaintiffs may not invoke the “substantial
similarity” standard unless the record shows that the prior
placement, iHope, is unavailable. See Neske, 2019 WL 3531959,
at *1, 7. The Impartial Hearing Officer was clear on this point,
Plaintiffs did not challenge it in their original papers, and they
cannot now raise a new issue on a motion for reconsideration,
to flip both the standard and burden from proof of
unavailability to proof of availability. In any event, the Court

6

A13
make a prima facie showing that whatever pendency
placement it offered was satisfactory. See Pl. Br.
(Dkt. 39) at 6, 8–9. Aside from the fact that a
“pendency placement” is generally pre-determined
by the factual circumstances, rather than offered by
the Defendant, as discussed above, Plaintiffs gravely
misunderstand the compromise struck by the IDEA’s
pendency provision. Section 1415(j) “requires a
school district to continue funding whatever
educational placement was last agreed upon for the
child until” the school district and the parents can
resolve their disagreements. T.M. ex rel. A.M. v.
Cornwall Cent. Sch. Dist., 752 F.3d 145, 171 (2d Cir.
2014) (emphasis added). The idea of the “last agreed
upon” placement rests on the common-sense notion
that a presumptively appropriate, interim placement
has ruled on this issue, and Plaintiffs have not cited any
controlling authority to the contrary.
Plaintiffs cite N.Y. Educ. Law § 4404(c) to support their
argument that the burden is always on the school district,
including during a pendency dispute, but that cannot be the
case. See Pl. Br. (Dkt. 39) at 8. Even Plaintiffs acknowledge
that they would bear the burden of proving “substantial
similarity,” if substantial similarity were relevant. Id. at 2
(“Plaintiffs were entitled to enroll A.N. at iBrain, so long as
they . . . establish that the two programs are substantially
similar.”). Plaintiffs never alleged and nothing in the record
suggests that iHope, the school the parents selected and as to
which the IHO concurred was appropriate, was unavailable for
the 2018–19 term. Even now, Plaintiffs do not even attempt to
suggest otherwise. Because the “substantial similarity”
standard is irrelevant on these facts, Plaintiffs’ contention that
the Court should have undertaken an independent assessment
of the similarity between iHope and iBrain is without merit.
See Neske, 2019 WL 3531959, at *6 n.4 (explaining that if the
Court agreed that the substantial similarity standard were
relevant, then the Court would have remanded to the agency
for factfinding).

A14
for all interested parties is one that was previously
acceptable to the parents and to the school district
and, at least at one point, provided the child with an
appropriate education. There simply is nothing in
the language of the pendency provision that requires
the parents and the school district to undergo a
separate exercise anew to ascertain the propriety of
the last agreed upon placement before it can serve as
a temporary placement.
In sum, Plaintiffs’ motion for reconsideration is
an effort to relitigate settled issues, without pointing
to any controlling law or fact that the Court
overlooked when issuing the original decision.
CONCLUSION
For the reasons discussed above, Plaintiffs’
motion for reconsideration is DENIED. The Clerk of
Court is respectfully directed to terminate docket
entry 38.
SO ORDERED.
________________________
Date: November 7, 2019
New York, New York
/S/VALERIE CAPRONI
United States District Judge

A15
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19-CV-2933 (VEC)
DATE FILED: 08/02/2019
DOROTHY NESKE and CHRISTOPHER
NESKE, as Parents and Natural Guardians of
A.N., and DOROTHY NESKE and
CHRISTOPHER NESKE, Individually,
Plaintiffs,
-againstNEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant.
OPINION AND ORDER
VALERIE CAPRONI, United States District Judge:
The parents and guardians of a minor, A.N., seek
an order compelling the New York City Department
of Education (“the City”) to fund A.N.’s attendance at
the International Institute for the Brain (“iBrain”), a
private school for children with special needs.
Plaintiffs have moved for a preliminary injunction
ordering the City to provide funding pursuant to 20
U.S.C. § 1415(j), the so-called “stay put” or
“pendency” provision of the Individuals with
Disabilities Education Act (“the IDEA”). The City
has moved to dismiss Plaintiffs’ complaint on
procedural grounds and on the merits. For the

A16
reasons discussed below, the City’s motion to dismiss
is GRANTED.
I.

BACKGROUND

The pertinent facts are undisputed. A.N. is an
eight-year-old boy who has learning disabilities
caused by a brain injury. Compl. (Dkt. 1) ¶¶ 7–8. In
2017, Plaintiffs disagreed with A.N.’s Individualized
Education Program (“IEP”) for the 2017–18 school
year and unilaterally enrolled him at the
International Academy of Hope (“iHope”).
Finkelstein Findings of Fact and Decision (“FOFD”)
(Dkt. 17-2) at 3. Plaintiffs then sought
reimbursement from the City for A.N.’s tuition and
other costs of attendance. Id.; Compl. ¶¶ 9–10. On
March 6, 2018, an Impartial Hearing Officer (IHO),
Sharyn Finkelstein, agreed with Plaintiffs that the
City had not developed an appropriate IEP for the
’17–18 term, determined that iHope provided an
appropriate program for A.N., and ordered full
reimbursement for the cost of his attendance. FOFD
at 10; Compl. ¶ 10.
That resolution was short-lived. On June 21,
2018, Plaintiffs notified the City that it had not
offered A.N. a program or placement that will
address his educational needs and therefore they
intended to move A.N. from iHope to iBrain, which
appears to be a newly-opened offshoot or competitor
of iHope. Rosken Decision (Dkt. 17-6) at 7; Compl. ¶
12. A.N. has been attending iBrain since July 9,
2018, when the school first opened its doors. Rosken
Hearing Tr. (Dkt. 17-5) at 46; Compl. ¶ 13. On the
day that A.N. began attending iBrain, Plaintiffs filed
a due process complaint against the City, alleging

A17
that A.N. had not been offered a free and
appropriate public education (FAPE) for the 2018–19
school year and requesting a so-called “stay-put” or
pendency order for A.N. at iBrain. Compl. ¶ 14. A
pendency order would require the City to fund A.N.’s
tuition and related costs at iBrain while Plaintiffs’
due process complaint was being resolved. See 20
U.S.C. § 1415(j); Doe v. E. Lyme Bd. of Educ., 790
F.3d 440, 452 (2d Cir. 2015).
At an evidentiary hearing on October 9, 2018,
Plaintiffs argued to IHO Brad Rosken that they were
legally entitled to transfer funding from iHope1 to
any other “substantially similar” program, such as
iBrain. Compl. ¶ 16. IHO Rosken disagreed; he
concluded that Plaintiffs may not port their funding
to another school if the child’s previously agreedupon placement, here iHope, is still available.
Rosken Decision at 7. Because iHope remained an
available option, IHO Rosken concluded that the
“substantially similar” principle was irrelevant and,
accordingly, declined to determine whether the
programs at iHope and iBrain were, in fact,
“substantially similar.” Id. at 7–8. On that basis,
IHO Rosken denied Plaintiffs’ request for interim
funding of A.N.’s placement at iBrain, and instead
directed the City to fund A.N.’s placement at iHope.
Id. at 10; Compl. ¶ 17.

The City had proposed a public school placement for A.N. for
the 2018–19 school year. Dkt. 17-4. There appears to be no
dispute that the parents could have challenged the City’s
proposal to educate A.N. in a public school and would have
obtained a stay put order that would have resulted in the City
paying A.N.’s tuition at iHope while the parent’s appeal was
being processed.

1

A18
On November 21, 2018, Plaintiffs appealed IHO
Rosken’s decision to the State Review Officer (SRO).
Krolak Decision (Dkt. 27-2) at 7–8. On December 21,
2018, the SRO dismissed Plaintiffs’ appeal as
untimely because, absent a showing of good cause,
an appeal from the IHO decision had to be taken
within 40 days, which would have been November
19, 2018. Id. The SRO noted that Plaintiffs would
have another opportunity to challenge the pendency
decision, which had been issued on an interim basis,
as part of their appeal of the IHO’s final decision on
A.N.’s due process complaint. Id. at 8.
More than four months later, Plaintiffs
commenced this action, seeking vacatur of the IHO
decision. Compl. at 5–6. The Complaint does not
challenge the SRO decision directly. See generally id.
On May 23, 2019, the City moved to dismiss. Dkt.
13. On May 29, 2019, nearly two months after
commencing this action, Plaintiffs moved for a
preliminary injunction directing the City to fund
A.N.’s attendance at iBrain. Dkt. 16. Based on the
Court’s review of cases in this district, Plaintiffs are
at least the seventh family to seek a pendency order
after unilaterally moving their child from iHope to
iBrain in the past year.
II. DISCUSSION
The Court addresses the City’s motion to dismiss
first because it is dispositive of Plaintiffs’ motion for
injunctive relief and Plaintiffs’ overall case. The City
argues that Plaintiffs’ case should be dismissed
because of (1) failure to exhaust administrative
remedies, (2) lack of standing, (3) untimeliness, and
(4) failure to state a claim. See generally Def. Br.

A19
(Dkt. 14). The Court rejects the City’s arguments as
to exhaustion and standing and declines to rule on
timeliness, but agrees that Plaintiffs have failed to
state a claim upon which relief may be granted.
A. Administrative Exhaustion
Although the City claims that Plaintiffs failed to
exhaust their administrative remedies by not taking
a timely appeal of IHO Rosken’s decision to the SRO,
Plaintiffs’ action is exempt from the exhaustion
requirement. Ordinarily, a “plaintiff’s failure to
exhaust administrative remedies under the IDEA
deprives a court of subject matter jurisdiction.”
Polera v. Bd. of Educ. of Newburgh Enlarged City
Sch. Dist., 288 F.3d 478, 483 (2d Cir. 2002) (citing
Hope v. Cortines, 69 F.3d 687, 688 (2d Cir. 1995));
B.C. ex rel. B.M. v. Pine Plains Cent. Sch. Dist., 971
F.Supp. 2d 356, 365 (S.D.N.Y. 2013) (“Courts in this
Circuit have held that—absent good causeshown—a
party who fails to make a timely appeal to the SRO,
or fails to timely serve the respondent, has failed to
satisfy the exhaustion requirement.” (collecting
cases)). The exhaustion requirement, however, as
Plaintiffs point out, does not apply to actions that
seek a pendency or “stay-put” order, which the
Second Circuit views to be a form of emergency
relief. Murphy v. Arlington Cent. Sch. Dist. Bd. of
Educ., 297 F.3d 195, 199 (2d Cir. 2002).
In Murphy, the Second Circuit held that “an
action alleging violation of the stay-put provision
falls within one, if not more, of the enumerated
exceptions to” exhaustion. Id. (“Congress specified
that exhaustion is not necessary if (1) it would be
futile to resort to the IDEA’s due process procedures;

A20
(2) an agency has adopted a policy or pursued a
practice of general applicability that is contrary to
the law; or (3) it is improbable that adequate relief
can be obtained by pursuing administrative
remedies.”). While the City attempts to distinguish
Murphy on the merits as being a case that involved
an actual risk of interruption of the child’s
education, whether Plaintiffs’ claim is likely to
succeed has nothing to do with the threshold
jurisdictional question.2 See id. (“The administrative
process is inadequate to remedy violations of [20
U.S.C.] § 1415(j) because, given the time-sensitive
nature of the IDEA’s stay-put provision, an
immediate appeal is necessary to give realistic
protection to the claimed right.” (citation omitted)).
Indeed, pendency relief pursuant to § 1415(j) must
be decided without regard to the traditional
injunction factors, such as irreparable harm and
likelihood of success on the merits. Zvi D. by Shirley
D. v. Ambach, 694 F.2d 904, 906 (2d Cir. 1982). To
require a showing that a child’s education may be
interrupted in order to trigger this Court’s subjectmatter jurisdiction would, therefore, be contrary to
the purpose and design of § 1415(j).
Accordingly,
the Court concludes that Plaintiffs were not required
to administratively exhaust their claims before
pursuing this action.

Nor is this case only seeking reimbursement following the
completion of all administrative proceedings. Cf. M.M. ex rel.
J.M. v. New York City Dep’t of Educ., No. 09-CV-5236, 2010 WL
2985477, at *10 (S.D.N.Y. July 27, 2010) (holding that Murphy
does not extend to § 1415(j) claims seeking reimbursement
after conclusion of challenge to child’s placement).

2

A21
B. Standing
Although a close issue, the Court finds that
Plaintiffs have standing to maintain this action.
“[T]o satisfy the core requirements derived from
Article III, a plaintiff must allege: (1) personal injury
or threat of injury; (2) that the injury fairly can be
traced to the action challenged; and (3) that the
injury is likely to be redressed by the requested
relief.” Heldman ex rel. T.H. v. Sobol, 962 F.2d 148,
154 (2d Cir. 1992). The City argues that Plaintiffs
lack standing because Plaintiffs have not alleged an
injury and, to the extent that any injury exists, it
was caused by Plaintiffs’ unilateral decision to
transfer A.N. to iBrain. As other courts have
recognized under similar circumstances, however, a
denial of “stay-put” creates an injury sufficient for
Article III purposes.
In a non-binding, unpublished decision, the
Second Circuit described the “stay-put” provision as
creating a procedural right. See A.S. ex rel. P.B.S. v.
Bd. of Educ. for Town of W. Hartford, 47 F. App’x
615, 616 n.2 (2d Cir. 2002); Navarro Carrilo v. New
York City Dep’t of Educ., No. 19-CV-2944, 2019 WL
2511233, at *9 (S.D.N.Y. June 13, 2019). Even if the
right to “stay put” is procedural, rather than
substantive, Plaintiffs must still allege the existence
of a concrete interest that has been or is likely to be
harmed by the procedural violation. See
Massachusetts v. E.P.A., 549 U.S. 497, 517–18 (2007)
(“[A] litigant to whom Congress has accorded a
procedural right to protect his concrete interests—
here, the right to challenge agency action unlawfully
withheld—can assert that right without meeting all
the normal standards for redressability and

A22
immediacy.” (citations omitted)); de Paulino v. New
York City Dep’t of Educ., No. 19-CV-222, 2019 WL
1448088, at *3 (S.D.N.Y. Mar. 20, 2019),
reconsideration denied sub nom. Ventura De Paulino
v. New York City Dep’t of Educ., No. 19-CV-222, 2019
WL 2498206 (S.D.N.Y. May 31, 2019) (“[T]he
violation of a procedural right granted by statute can
be sufficient . . . to constitute injury in fact, as long
as the violation entails a degree of risk sufficient to
indicate a resulting concrete harm.” (quotation
marks omitted) (citing Spokeo, Inc. v. Robins, 136 S.
Ct. 1540, 1549–50 (2016))).
At least two concrete interests may be at stake
in “stay-put” cases. The first is the risk of disruption
of the child’s educational program. See Cohen v. New
York City Dep’t of Educ., No. 18-CV-11100, 2018 WL
6528241, at *1 (S.D.N.Y. Dec. 12, 2018). In this case,
Plaintiffs do not allege that the denial of “stay put”
has had or will have any impact on A.N.’s ongoing or
future attendance at iBrain, nor do they make any
such argument in their briefing. See Compl. ¶¶ 18–
24; Pl. Opp. Br. (Dkt. 24) at 6. Because there is no
apparent risk of any negative impact on A.N.’s
education caused by the denial of a pendency order,
Plaintiffs have not demonstrated aconcrete injury on
this basis. See Cohen, 2018 WL 6528241, at *1
(finding lack of “actual or imminent” harm because
no indication that child was at risk of expulsion from
iBrain).
Alternatively, parents and guardians may have a
concrete interest in avoiding out-of-pocket payments
for their child’s tuition and related costs. As other
courts in this District have concluded, the likelihood
that a parent or guardian will incur personal
financial obligations, due to the lack of interim

A23
funding from the school district, is sufficient to
create an injury for standing purposes. Cruz v. New
York City Dep’t of Educ., No. 18-CV-12140, 2019 WL
147500, at *6 (S.D.N.Y. Jan. 9, 2019) (“The Second
Circuit has stated that a plaintiff’s ‘contractual
obligation to pay private-school tuition . . . even if
her IDEA claim against [DOE] fails to result in
funding’ is sufficient to establish an injury in fact for
standing purposes.” (quoting E.M. v. New York City
Dep’t of Educ., 758 F.3d 442, 457, 459 (2d Cir.
2014))); see also de Paulino, 2019 WL 1448088, at *4
(same). Although Plaintiffs have not submitted a
copy of A.N.’s enrollment contract, the Court draws,
at this stage, an inference in their favor that A.N.’s
contract is similar to those in other cases involving
iHope-to-iBrain transferees. iBrain’s enrollment
contracts appear to defer any obligation to pay
tuition until administrative proceedings have been
resolved—and in the event of an unfavorable
resolution, parents may withdraw their children
from iBrain and enter into an individualized
payment plan for fees incurred prior to such
withdrawal. See, e.g., de Paulino, 2019 WL 1448088,
at *3–4; Cruz, 2019 WL 147500, at *6–7; Cohen,
2018 WL 6528241, at *2. Because the absence of a
pendency order may result in Plaintiffs having to
pay iBrain for at least some portion of A.N.’s tuition,
the Court finds that Plaintiffs have demonstrated a
concrete harm arising out of the City’s refusal to
provide pendency at iBrain.
That injury is also fairly traceable to the City.
While the City claims that the injury is caused by
Plaintiffs’ unilateral decision to transfer A.N. to
iBrain, the traceability analysis does not require a
defendant’s actions to be the exclusive or even

A24
proximate cause of the alleged injury. Rothstein v.
UBS AG, 708 F.3d 82, 91 (2d Cir. 2013). Here,
Plaintiffs’ alleged injury bears a causal nexus to the
City’s refusal to fund A.N.’s placement at iBrain. See
Navarro, 2019 WL 2511233, at *11 (rejecting the
City’s argument that injury was not traceable to the
City because of Plaintiffs’ unilateral transfer to
iBrain).
For those reasons, the Court finds that Plaintiffs
have standing to seek a “stay-put” order.
C. Timeliness
Section 1415(i)(2)–(3) allows a civil action to be
brought in federal court by “[a]ny party aggrieved by
the findings and decision” of a state or local
educational agency in connection with an impartial
due process hearing. In New York, such actions are
subject to a four-month statute of limitations. N.Y.
Educ. Law § 4404(3)(a); see also Adler by Adler v.
Educ. Dep’t of State of N.Y., 760 F.2d 454, 459–60
(2d Cir. 1985) (interpreting previous iteration of the
IDEA and applying analogous statute of limitations
applicable to Article 78 proceedings in state court);
Engwiller v. Pine Plains Cent. Sch. Dist., 110 F.
Supp. 2d 236, 242 n.1 (S.D.N.Y. 2000). Any time-bar
under the IDEA is not jurisdictional, however,
because the IDEA lacks a clear statement to that
effect. See United States v. Kwai Fun Wong, 135 S.
Ct. 1625, 1632 (2015) (“[T]he Government must clear
a high bar to establish that a statute of limitations is
jurisdictional. In recent years, we have repeatedly
held that procedural rules, including time bars,
cabin a court’s power only if Congress has clearly
stated as much.” (internal quotation marks and

A25
citation omitted)); Gonzalez v. Thaler, 565 U.S. 134,
141 (2012) (“A rule is jurisdictional [i]f the
Legislature clearly states that a threshold limitation
on a statute’s scope shall count as jurisdictional.”
(internal quotation marks and citation omitted)); see
also M.G. v. New York City Dep’t of Educ., 15 F.
Supp. 3d 296, 304 (S.D.N.Y. 2014) (“The IDEA’s
statute of limitations is an affirmative defense
rather than a jurisdictional prerequisite.”)
(discussing IDEA’s two-year limitation on
commencing a due process complaint).
The City argues that Plaintiffs’ attempt to seek
judicial review is untimely because more than four
months elapsed between IHO Rosken’s initial
decision and this lawsuit being filed. In contrast,
Plaintiffs argue that, because a pendency decision is
an interim order, it does not trigger the four-month
statute of limitations until a final decision has been
issued at the conclusion of the due process hearing.
Plaintiffs are in the unusual position of arguing that
pendency relief is so urgent that they must be
allowed to seek immediate appeal without
exhausting administrative avenues—yet they should
nonetheless be allowed to dawdle for as long as they
wish prior to seeking such relief. In the Court’s view,
the correct and most workable approach would be to
calculate the statute of limitations from the agency’s
most recent decision on pendency relief, which, in
this case, would be December 21, 2018, the date the
SRO dismissed Plaintiffs’ appeal. See Krolak
Decision at 8.
In any event, the Court need not decide whether
this action was timely filed because the IDEA’s
statute of limitations is not jurisdictional, and

A26
Plaintiffs, for the reasons discussed below, lose on
the merits.
D. Failure to State a Claim
To survive a Rule 12(b)(6) motion to dismiss, “a
complaint must contain sufficient factual matter,
accepted as true, to state a claim to relief that is
plausible on its face.” Hogan v. Fischer, 738 F.3d
509, 514 (2d Cir. 2013) (citation omitted). When
“ruling on a Rule 12(b)(6) motion, we accept the
allegations contained in the complaint as true and
draw all reasonable inferences in favor of the
nonmoving party.” Taylor v. Vt. Dep’t of Educ., 313
F.3d 768, 776 (2d Cir. 2002). Plaintiffs claim that §
1415(j), the “stay-put” or “pendency” provision of the
IDEA, requires the City to fund A.N.’s tuition and
expenses at whatever school A.N. happens to attend,
as long as the chosen school offers a program
“substantially similar” to iHope’s. For the reasons
discussed below, the Court agrees with the City that
§ 1415(j) does not require school districts to provide
a portable voucher—at least not when, as here, the
original placement remains an available option.
Section 1415(j) provides that, “during the
pendency of any proceedings conducted pursuant to
this section, unless the State or local educational
agency and the parents otherwise agree, the child
shall remain in the then-current educational
placement of the child.” “To determine a child’s
‘then-current educational placement,’ a court
typically looks to: (1) ‘the placement described in the
child’s most recently implemented IEP’; (2) ‘the
operative placement actually functioning at the time
when the stay put provision of the IDEA was

A27
invoked’; or (3) ‘the placement at the time of the
previously implemented IEP.’”3 E. Lyme Bd. of
Educ., 790 F.3d at 452 (quoting Mackey ex rel.
Thomas M. v. Bd. of Educ. For Arlington Cent. Sch.
Dist., 386 F.3d 158, 163 (2d Cir. 2004)). In this case,
there is no question that the relevant “education
placement” is the program set forth in IHO
Finkelstein’s Findings of Fact and Decision.
Although IHO Finkelstein’s decision determined
that iHope was an appropriate placement and
ordered the City to fund A.N.’s attendance at iHope
during the 2017–18 school year, FOFD at 11,
Plaintiffs claim that the term “educational
placement” is a functional definition. That is,
“placement” refers to the features and services of the
educational program that IHO Finkelstein set forth
in her decision, which were available at iHope but
could also be available at another school. Those
features include, among others, a 6:1:1 class ratio,
occupational therapy five times per week, physical
therapy five times per week, and speech and
language therapy four times per week. FOFD at 11.
According to Plaintiffs, because the term
“educational placement” is not tied to a particular
physical location, Plaintiffs are entitled unilaterally
to move A.N. to any other school offering, in their
The City argues that Plaintiffs have waived any alternative
argument that iBrain should be considered the “operative
placement” because that argument was not raised before the
IHO. City Reply (Dkt. 29) at 7. Regardless of any waiver, the
“operative placement” factor is inapplicable to these facts. See
Navarro, 2019 WL 2511233, at *19 (“Courts tend to rely on the
‘operative placement’ factor in circumstances in which there
was no prior- implemented IEP that might guide a
determination of a ‘current educational placement.’” (citation
omitted)).

3

A28
opinion, “substantially similar” services without any
interruption in funding.
Plaintiffs’ position finds support in Second
Circuit precedent only by taking language out of
context. The Second Circuit has indeed stated that
the term “‘[e]ducational placement’ refers to the
general educational program—such as the classes,
individualized attention and additional services a
child will receive—rather than the ‘bricks and
mortar’ of the specific school.” T.Y. v. New York City
Dep’t of Educ., 584 F.3d 412, 419 (2d Cir. 2009). And,
on that theory, at least one family has successfully
persuaded one judge in this district that a stay-put
injunction is warranted based on the family’s
unilateral decision to move a student from one school
to another. See Navarro, 2019 WL 2511233, at *3–4.
In this Court’s view, however, Plaintiffs
misinterpret the central principle behind the Second
Circuit’s decision. In T.Y., although the Second
Circuit did hold that “educational placement” refers
to a student’s general education program, the Court
did so only to conclude that the IDEA does not
require the school district to assign the student to
any “specific school location,” as long as the assigned
school meets the student’s needs. See 584 F.3d at
420 (“[B]ecause there is no requirement in the IDEA
that the IEP name a specific school location, T.Y.’s
IEP was not procedurally deficient for that reason.
We emphasize that we are not holding that school
districts have carte blanche to assign a child to a
school that cannot satisfy the IEP’s requirements.
We simply hold that an IEP’s failure to identify a
specific school location will not constitute a per se
procedural violation of the IDEA.”). Indeed, the
Second Circuit specifically explained that parents

A29
may “participate” in the school-selection process;
they may not, however, “veto” the school district’s
choice of location. Id. (“The parents’ actions suggest
that they seek a ‘veto’ over school choice, rather than
‘input’—a power the IDEA clearly does not grant
them.”).
Plaintiffs now seek precisely that veto power.
Under Plaintiffs’ view of Section 1415(j), parents can
unilaterally move the student to their preferred
school, file a due process complaint against the
district, and then seek automatic funding through a
“stay-put” order. Moreover, Plaintiffs claim that this
Court must simply accept as true their conclusory
allegation that the new program is “substantially
similar” to the previous one.4 Pl. Opp. Br. at 4. If the
Even if the Court were to agree with Plaintiffs that they may
port funding to any “substantially similar” program, the record
is inadequate for the Court to conclude that iBrain and iHope
are “substantially similar.” Courts should have the assistance
of agency expertise when evaluating educational placements.
Abrams v. Carranza, No. 19-CV-4175, 2019 WL 2385561, at *4
(S.D.N.Y. June 6, 2019) (“[A] federal court should not make
substantialsimilarity determinations in the first instance when
the Independent Hearing Officer or State Review Officer did
notdo so.”); Cruz, 2019 WL 147500, at *10 (remanding for
factfinding on similarity of iHope and iBrain). Thus,Plaintiffs’
conclusory allegations would not justify the injunctive relief
they seek, and at minimum, the case wouldneed to be
remanded for further fact development as to the “substantial
similarity” between the programs at iHopeand iBrain. If the
other iHope-to-iBrain cases in this district are any indication,
reasonable minds can differ onwhether the programs are
substantially similar. Compare Navarro, 2019 WL 2511233, at
*17 (reversing agencydetermination that iBrain and iHope are
not substantially similar) with Angamarca, v. New York City
Dep’t of Educ.,No. 19-CV-2930, 2019 WL 3034912, at *9
(S.D.N.Y. July 11, 2019) (affirming agency determination that
iBrainand iHope are not substantially similar and denying

4

A30
Court were to grant a “stay-put” order based on that
bare allegation, Plaintiffs would not be required to
reimburse the City if they do not ultimately prevail
in the due process proceeding. See Fiallos v. New
York City Dep’t of Educ., No. 19-CV-334, Dkt. 36, at
22 (S.D.N.Y. May 9, 2019) (“Plaintiffs offer no
rational, non-conclusory argument for why they
should receive money that they would not have to
pay back and to which they may not have a right at
all.” (quoting Cohen, 2018 WL 6528241, at *3)). In
effect, Plaintiffs hope to use § 1415(j), a provision
designed to maintain continuity of a child’s
education, to convert an IEP into a transient school
voucher to be exercised by the parents unilaterally.
Plaintiffs’ voucher theory is not supported by
circuit precedent. The Second Circuit has long held
that school districts retain some discretion and
flexibility to make practical adjustments to a
student’s “educational placement,” which includes
transferring students between comparable schools
offering the same services. See Concerned Parents &
Citizens for the Continuing Educ. at Malcolm X (PS
79) v. New York City Bd. of Educ., 629 F.2d 751,
753–55 (2d Cir. 1980) (holding that section 1415(b)
would not be triggered by a decision to transfer the
special education classes between two regular
schools in the same district and noting that a
contrary “interpretation of the [IDEA] would
virtually cripple the Board’s ability to implement
even minor discretionary changes within the
injunctive relief). Moreover, based on the limited evidence
putbefore the IHO, at least at the time A.N. was first enrolled
at iBrain, it appears it was not fully staffed and may havebeen
incapable of delivering all of the services required by A.N.’s
IEP. Rosken Hearing Tr. at 47–52.

A31
educational programs provided for its students”).
Here, issuing a “stay-put” order, immediately after
Plaintiffs unilaterally decided to transfer A.N. to
iBrain, when iHope (which Plaintiffs had
unilaterally chosen the year before) remains an
available option, would allow the parents effectively
to dictate where an IEP is to be implemented. Such a
scheme deprives school districts of the flexibility
afforded to them under Concerned Parents.5
Plaintiffs’ approach also risks undermining the
very purpose of Section 1415(j), which is to ensure
stability for the student. See Murphy, 297 F.3d at
199; de Paulino, 2019 WL 1448088, at *7. Common
sense dictates that, to ensure some level of
continuity of educational experience, the ultimate
discretion to transfer a student’s funding or
placement cannot be wielded concurrently by the
school district and the parents. Otherwise, the two
sides could engage in an endless tug-of-war, each
seeking to countermand the other, causing the
In this case, from a financial perspective, there may be little
difference in the cost to the City of tuition reimbursement for
iHope as opposed to iBrain, assuming iBrain is, in fact, an
appropriate placement. But the legal proposition that Plaintiffs
are advocating would not be so limited. If Plaintiffs were
correct, parents could unilaterally move a child from a public
school that is fully capable of providing a FAPE to a private
school that they believe is also so capable and then demand
payment of their private school tuition under the aegis of a
stay-put order. That is contrary to a long line of IDEA
precedent, which allows parents unilaterally to enroll a child in
a private school and to obtain reimbursement of tuition only
after they establish that the district’s proposal did not provide
a FAPE and that the school they selected did. See, e.g., Sch.
Comm. of the Town of Burlington v. Dep’t of Educ., 471 U.S.
359, 370 (1985), Frank G. v. Bd. Of Educ. of Hyde Park, 459
F.3d 356, 363 (2d Cir. 2006).
5

A32
student to be repeatedly reassigned or transferred.
Under T.Y. and Concerned Parents, parents or
guardians have a right to voice their preference
regarding school selection, but school choice
ultimately lies with the state or local education
agency—provided that the selected school can
provide a FAPE. See T.Y., 584 F.3d at 420;
Concerned Parents, 629 F.2d at 753–55.
Because Plaintiffs misread T.Y. and Concerned
Parents, this Court agrees with IHO Rosken that §
1415(j) does not require the City to fund a student’s
attendance at a preferred, “substantially similar”
school, at least not when the existing school is
concededly able to service the student’s IEP. See
Ventura De Paulino v. New York City Dep’t of Educ.,
No. 19-CV-222, 2019 WL 2498206, at *3 (S.D.N.Y.
May 31, 2019) (“This Court finds no legal basis
whatsoever in statute, regulation, or case law to
support Plaintiff’s ‘substantial similarity’
proposition.”).6 Absent the City’s chosen school being
somehow unavailable or inadequate, Plaintiffs’
Some state review officers, as a matter of practice, appear to
have considered whether a unilateral placement by a parent is
“substantially similar” to the previous program. E.g., Cruz,
2019 WL 147500, at *3. The IDEA does not compel the review
officers to do so. Cruz seemed to assume, without any analysis,
the correctness of the state review officer’s “substantial
similarity” standard and remanded for factfinding on that
issue. See id. at *10. Then, another district court, in Navarro,
cited Cruz, again without further analysis, for the existence of
the “substantial similarity” standard for determining when
parents or guardians may transfer public funding. See Navarro,
2019 WL 2511233, at *4. This Court has not found any decision
in this circuit that has actually interpreted §1415(j) or Second
Circuit precedent to allow parents to unilaterally force
reallocation of funding to any“substantially similar” school or
program of their choice.
6

A33
argument that funding is portable collapses under
its own weight. In essence, Plaintiffs want to divorce
the term “placement” from any particular brick-andmortar school when they want to move A.N.— and
then graft a school-specific requirement back onto
the definition once A.N. has been enrolled in the
school of their choice—so as to compel the City to
pay for whatever new school they choose. If the term
“educational placement” under § 1415(j) is purely a
functional definition and does not require A.N. to be
placed at iHope, then, by the same logic, Section
1415(j) does not require the City to fund A.N.’s
placement at iBrain. Thus, even assuming the
Plaintiffs correctly interpret the phrase “educational
placement” to refer merely to the level of educational
services that A.N. must receive, the Court simply
sees nothing in § 1415(j) that requires the City to
accede to Plaintiffs’ preferred school.
In sum, Plaintiffs’ legal theory depends on an
inverted reading of the Second Circuit’s decisions
and has no basis in the pendency provision of the
IDEA. Because the Court sees no reason to disturb
IHO Rosken’s decision under 20 U.S.C. § 1415(j), the
City’s motion to dismiss is GRANTED.7
Plaintiffs have asked the Court to decide their motion for a
preliminary injunction before deciding the City’s motion to
dismiss. Dkt. 21. The order by which this Court decides the
motions is immaterial to the outcome because, for the same
reason that the Court is granting the City’s motion to dismiss,
Plaintiffs are not entitled to injunctive relief. As Judge Koeltl
and Judge Furman have explained in their respective cases
involving iBrain transferees, Section 1415(j) is inapplicable
when, as here, there is no meaningful threat to the child’s
learning experience. See Fiallos, No. 19-CV-334, Dkt. 36 at 22;
Cohen, 2018 WL 6528241, at *2. Absent an automatic
injunction under § 1415(j), Plaintiffs are not entitled to a
7

A34
III. CONCLUSION
For the reasons discussed, the City’s motion to
dismiss, Dkts. 12–15, is GRANTED pursuant to Rule
12(b)(6) of the Federal Rules of Civil Procedure. The
Clerk of Court is respectfully directed to terminate
all pending motions and deadlines and close the
case.
SO ORDERED.
Date: August 2, 2019
New York, New York
/S/ VALERIE CAPRONI
United States District Judge

preliminary injunction under this Circuit’s normal preliminary
injunction standard because Plaintiffs cannot show irreparable
harm—A.N.’s education is not at risk of disruption, and the
only dispute is determining who pays his tuition and when. See
Fiallos, No. 19-CV-334, Dkt. 36 at 23–24 (“There is no
conceivable irreparable injury to be prevented by a preliminary
injunction.”).

A35
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 28th day of
October, two thousand twenty.
PRESENT: REENA RAGGI, RICHARD J.
SULLIVAN, WILLIAM J. NARDINI, Circuit Judges.
_______________________
CYNTHIA SORIA, Individually and as Parent and
Natural Guardian of G.S., GIOVANNI SORIA,
Individually and as Parent and Natural Guardian of
G.S.,
Plaintiffs-Appellees,
v.
No. 19-2540
NEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant-Appellant.
For Plaintiffs-Appellees: PETER G. ALBERT, Brain
Injury Rights Group, New York, NY.
For Defendant-Appellant: ERIC LEE (Richard
Dearing, Scott Shorr, on the brief), for James E.
Johnson, Corporation Counsel of the City of New
York, New York, NY.

A36
Appeal from the United States District Court for
the Southern District of New York (Analisa Torres,
Judge).
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the order of the district court is
VACATED, and the case is REMANDED with
instructions to dismiss the complaint for failure to
state a claim upon which relief can be granted.
Defendant-Appellant New York City Department of
Education (the “City”) appeals from an order
granting the motion of Plaintiffs-Appellees Cynthia
and Giovanni Soria for a preliminary injunction. We
assume the parties’ familiarity with the underlying
facts, procedural history of the case, and the issues
on appeal.
The Sorias are the parents of G.S., a child with a
disability. During the 2017–2018 school year, when
G.S. was a student at the International Academy of
Hope (“iHOPE”), the Sorias initiated an
administrative proceeding alleging that the City
failed to offer G.S. a free appropriate public
education (“FAPE”) for that school year, as required
by the Individuals with Disabilities Education Act
(“IDEA”). In June 2018, an impartial hearing officer
agreed that the City had not offered G.S. a FAPE,
found that iHOPE was an appropriate placement for
G.S., and ordered the City to reimburse the Sorias in
full for G.S.’s tuition at iHOPE for the 2017–2018
school year. The City did not appeal this decision.
Without the City’s consent, the Sorias then
unilaterally transferred G.S. to another private
school called the International Institute for the
Brain (“iBRAIN”) for the 2018–2019 school year.
Shortly thereafter, the Sorias initiated a second

A37
administrative proceeding alleging that G.S.’s
individualized educational program (“IEP”) for the
2018–2019 school year failed to offer G.S. a FAPE.
This time, however, in addition to seeking tuition
reimbursement, the Sorias sought upfront public
funding for G.S.’s tuition at iBRAIN during the
pendency of their IEP challenge, pursuant to the
IDEA’s “stay-put” provision, 20 U.S.C. § 1415(j).
After an impartial hearing officer denied the Sorias’
request for pendency funding and a state review
officer affirmed that denial, the Sorias filed a
complaint against the City in the district court,
seeking an order vacating the review officer’s
decision and directing the City to fund G.S.’s tuition
at iBRAIN until final adjudication of the Sorias’ IEP
challenge.1
We have now twice confronted an identical set of
material facts and legal issues: first in Ventura de
Paulino v. New York City Department of Education,
959 F.3d 519 (2d Cir. 2020), and more recently in
Neske v. New York City Department of Education,
On the eve of oral argument, the City submitted a letter
informing the Court that in September 2019, pursuant to the
district court’s preliminary injunction order, the City paid
iBRAIN and other providers for services rendered to G.S. in the
2018–2019 school year. See ECF Doc. No. 103 at 1–2. Shortly
thereafter, the Sorias evidently moved to Long Island and
enrolled G.S. in a new school there. See id. at 2. Although it is
not clear why it took the City until the day before oral
argument to learn these pertinent facts – most of which
occurred over a year ago and long before the parties had
submitted their briefs – we ultimately agree with the City that
these facts, without more, do not necessarily render this appeal
moot. Indeed, counsel for the Sorias agrees with the City that
this appeal is not moot because the Sorias could attempt to rely
on the district court’s order to establish G.S.’s pendency status
in future proceedings. See ECF Doc. No. 107 at 3.

1

A38
No. 19-4068-cv, 2020 WL 5868279 (2d Cir. Oct. 2,
2020). In fact, all three cases arise from the same
exodus of students from iHOPE to iBRAIN, and all
of the plaintiffs are represented by the Brain Injury
Rights Group (“BIRG”), whose founder Patrick
Donohue also founded iBRAIN after leaving iHOPE.
See generally Ventura de Paulino, 959 F. 3d at 528–
29, 528 n.29.
In Ventura de Paulino, we held (and in Neske,
we reiterated) that “[a] parent cannot unilaterally
transfer his or her child and subsequently initiate an
IEP dispute to argue that the new school’s services
must be funded on a pendency basis.” Id. at 536; see
also Neske, 2020 WL 5868279, at *1. That conclusion
decisively resolves this appeal. We invited the
parties to submit supplemental briefing to address
the applicability of Ventura de Paulino (and Neske)
to this appeal because, although the Sorias filed
their brief after we issued our decision in Ventura de
Paulino, they did not address the merits of that
decision. See Sorias’ Br., ECF Doc. No. 70, at 34–36.
In their supplemental briefing, the Sorias do not
present any arguments that were not already
addressed by either Ventura de Paulino or Neske.
First, the Sorias contend that this case is
distinguishable from Ventura de Paulino because the
City “never offered [G.S.] any pendency placement.”
Sorias’ Supp. Br., ECF Doc. No. 95, at 3. But the
same was true in Ventura de Paulino. Repeating
what we made clear in Neske, “[i]n both Ventura de
Paulino and this case, iHOPE became the students’
pendency placement not at the City’s instigation, but
rather by operation of law after the City chose not to
appeal the rulings of the impartial hearing officers
holding that iHOPE was an appropriate placement

A39
for these students.” Neske, 2020 WL 5868279, at *1
(citing Ventura de Paulino, 959 F.3d at 532). Thus,
“[j]ust as we deemed the City to have implicitly
chosen iHOPE as the pendency placement for the
students in Ventura de Paulino, the same applies
here.” Id.
Second, like the appellants in Neske, the Sorias
argue that this case falls under footnote 65 of
Ventura de Paulino, in which we reserved decision as
to a situation “where the school providing the child’s
pendency services is no longer available and the
school district either refuses or fails to provide
pendency services to the child.” Ventura de Paulino,
959 F.3d at 534 n.65; see Sorias’ Supp. Br. at 4. But
again, “that situation is no more present here than it
was in Ventura de Paulino” because “iHOPE
continued to be available to [G.S.] and the City did
not refuse or fail to provide pendency services at
iHOPE; rather the plaintiffs unilaterally moved
[G.S.] from [G.S.’s] pendency placement to a new
private school.” Neske, 2020 WL 5868279, at *2.
Moreover, like the appellants in Neske, the Sorias
never alleged in their complaint that iHOPE was
effectively “unavailable” because it had changed so
drastically, see id. at *2 n.2, and we decline to
consider that argument for the first time on appeal,
see Mellon Bank, N.A. v. United Bank Corp. of N.Y.,
31 F.3d 113, 116 (2d Cir. 1994) (declining to review
an argument not raised before the district court
when the party “clearly had the opportunity to raise”
it below).2
BIRG submitted a letter to the Court after oral argument –
purportedly “in response” to the letter filed by the City –
arguing for the first time that iHOPE was “financially
unavailable” to the Sorias due to “substantial changes to the

2

A40
After Neske squarely and definitively rejected
these attempts to distinguish Ventura de Paulino,
we hoped (perhaps naively) that BIRG would not
repeat them here. Simply put, this case is materially
identical to Ventura de Paulino, and we reaffirm
that binding precedent here.
***
Accordingly, we VACATE the district court’s
August 7, 2019 order and REMAND the case with
instructions to dismiss the complaint for failure to
state a claim upon which relief can be granted.
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe, Clerk of Court

iHOPE administration.” See ECF Doc. No. 107 at 1–2. BIRG
does not cite anything in the record to support these new
contentions, and we refuse to consider them for the first time
now. See Mellon Bank, 31 F.3d at 116.

A41

In the
United States Court of Appeals
for the Second Circuit
____________
AUGUST TERM 2019
No. 19-1662-cv
ROSA ELBA VENTURA DE PAULINO,
INDIVIDUALLY AND AS P/N/G OF R.P.,
Plaintiff-Appellant,
v.
NEW YORK CITY DEPARTMENT OF
EDUCATION AND NEW YORK STATE
EDUCATION DEPARTMENT
Defendants-Appellees,
ROBERT BRIGILIO,
Defendant.
______________
On Appeal from the United States District Court
for the Southern District of New York
______________

A42
No. 19-1813-cv
MARIA NAVARRO CARRILLO, AS PARENT AND
NATURAL GUARDIAN OF M.G. AND
INDIVIDUALLY; JOSE GARZON, AS PARENT
AND NATURAL GUARDIAN OF M.G. AND
INDIVIDUALLY,
Plaintiffs-Appellees,
v.
NEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant-Appellant.*
____________
On Appeal from the United States District Court
for the Southern District of New York
____________
ARGUED: JANUARY 28, 2020
DECIDED: MAY 18, 2020
____________
Before: LEVAL, CABRANES, AND SACK, Circuit
Judges.
The plaintiffs in these tandem cases, parents of
students with disabilities (“Parents”), chose to
withdraw their children (“Students”) from one private
school and to enroll them in a new private school.
Shortly after, the Parents initiated administrative
____________________

* The Clerk of Court is directed to amend the official caption as
shown above.

A43
proceedings to challenge the adequacy of the
Students’ individualized educational programs
(“IEPs”), written statements developed by a local
committee on special education that set out, among
other things, the Students’ educational needs and
the services that must be provided to meet those
needs. The Parents sued the New York City
Department of Education (“City”) under the
Individuals with Disabilities Education Act to obtain
public funding for the new school’s tuition and
services during the pendency of those proceedings.
In the first case, Ventura de Paulino v. New York
City Department of Education, No. 19-1662-cv,
Plaintiff-Appellant Rosa Elba Ventura de Paulino
appeals from an order denying her application for a
preliminary injunction and from a final judgment
entered on May 31, 2019, in the United States
District Court for the Southern District of New York
(George B. Daniels, Judge), dismissing her lawsuit.
In the second case, Navarro Carrillo v. New York
City Department of Education, No. 19-1813-cv, the
City appeals from an order entered on June 13, 2019,
in the United States District Court for the Southern
District of New York (Colleen McMahon, Chief
Judge), granting an application by PlaintiffsAppellees Maria Navarro Carrillo and Jose Garzon
for a preliminary injunction directing the City to pay
for the new school’s tuition and educational services.
Although these tandem cases come to us in
different procedural postures, the question presented
on appeal is the same: whether parents who
unilaterally enroll their child in a new private school
and challenge the adequacy of the child’s IEP are
entitled to public funding for the new school during
the pendency of the IEP dispute, on the basis that

A44
the educational program being offered at the new
school is substantially similar to the program that
was last agreed upon by the parents and the school
district and was offered at the previous school.
On de novo review, we conclude that such
parents are not entitled to public funding because it
is the school district, not the parents, who has the
authority to decide how a child’s last agreed-upon
educational program is to be provided at public
expense during the pendency of the child’s IEP
dispute.
Accordingly, the May 31, 2019 judgment in favor
of the City in Ventura de Paulino is AFFIRMED.
And the June 13, 2019 order granting the
application for preliminary injunction against the
City in Navarro Carrillo is VACATED, and the
cause REMANDED with instructions to dismiss the
complaint for failure to state a claim upon which
relief can be granted.
_____________
KARL J. ASHANTI (Peter G. Albert, on the brief),
Brain Injury Rights Group, Ltd., New York, NY, for
Plaintiff-Appellant in Ventura de Paulino, and
KARL J. ASHANTI (Peter G. Albert, on the brief),
Brain Injury Rights Group, Ltd., New York, NY, for
Plaintiffs-Appellees in Navarro Carrillo.
ERIC LEE, Assistant Corporation Counsel (Richard
Dearing and Scott Shorr, on the brief), for James E.
Johnson, Corporation Counsel of the City of New
York, New York, NY, for City Defendant-Appellee in
Ventura de Paulino, and ERIC LEE, Assistant
Corporation Counsel (Richard Dearing and Scott

A45
Shorr, on the brief), for James E. Johnson,
Corporation Counsel of the City of New York, New
York, NY, for Defendant-Appellant in Navarro
Carrillo.
BLAIR J. GREENWALD, Assistant Solicitor General
(Barbara D. Underwood, Solicitor General, and
Steven C. Wu, Deputy Solicitor General, on the
brief), for Letitia James, Attorney General, State of
New York, New York, NY, for State DefendantAppellee in Ventura de Paulino.
_____________
JOSÉ A. CABRANES, Circuit Judge:
The plaintiffs in these tandem cases, parents of
students with disabilities (“Parents”), chose to
withdraw their children (“Students”) from one
private school and to enroll them in a new private
school. Shortly after, the Parents initiated
administrative proceedings to challenge the
adequacy of the Students’ individualized education
programs (“IEPs”), written statements developed by
a local committee on special education that set out,
among other things, the Students’ educational needs
and the services that must be provided to meet those
needs.1 The Parents also sued the New York City
More specifically, the IEP is “a written statement that
sets out the child’s present educational performance,
establishes annual and short-term objectives for improvements
in that performance, and describes the specially designed
instruction and services that will enable the child to meet those
objectives.” M.H. v. N.Y. City Dep’t of Educ., 685 F.3d 217, 224
(2d Cir. 2012) (internal quotation marks and citation omitted).
The State of New York “has assigned responsibility for
developing appropriate IEPs to local Committees on Special
1

A46
Department of Education (“City”) under the
Individuals with Disabilities Education Act
(“IDEA”)2 to obtain public funding for the new
school’s tuition and services during the pendency of
the Students’ IEP disputes.
In the first case, Ventura de Paulino v. New York
City Department of Education, No. 19-1662-cv,
Plaintiff-Appellant Rosa Elba Ventura de Paulino
(“Ventura de Paulino”) appeals from an order
denying her application for a preliminary injunction
and from a final judgment entered on May 31, 2019,
in the United States District Court for the Southern
District of New York (George B. Daniels, Judge),
dismissing her lawsuit. In the second case, Navarro
Carrillo v. New York City Department of Education,
No. 19-1813-cv, the City appeals from an order
entered on June 13, 2019, in the United States
District Court for the Southern District of New York
(Colleen McMahon, Chief Judge), granting an
application by Plaintiffs-Appellees Maria Navarro
Carrillo (“Navarro Carrillo”)3 and Jose Garzon

Education . . ., the members of which are appointed by school
boards or the trustees of school districts.” Id. (internal
quotation marks and citation omitted); see also N.Y. Educ. Law
§ 4402(1)(b)(1).
2

20 U.S.C. §§ 1400–1482.

The record reveals that the name of Plaintiff-Appellee is
Maria Navarro Carrillo, not Maria Navarro Carrilo as referred
to by counsel. We note that “Carrillo,” unlike “Carrilo,” is a
common Hispanic surname. Indeed, the administrative
proceedings and school enrollment documents correctly identify
her surname as “Navarro Carrillo,” see, e.g., Navarro Carrillo
Joint App’x at 80, 83, 89, 143. The name was changed to
“Carrilo,” a misspelling of her maternal surname, by her
3

A47
(“Garzon”) for a preliminary injunction directing the
City to pay for the new school’s tuition and
educational services.4
Although these tandem cases come to us in
different procedural postures, they present the same
material facts and legal issues. The Students’
educational program that was last agreed upon by
the City and the Parents in the end of the 2017-2018
school year listed the International Academy of Hope
(“iHOPE”), a private school, as the Students’
educational provider. Prior to the beginning of the
2018-2019 school year, the Parents unilaterally
enrolled the Students in a new private school, the
counsel when filing the complaint. The misspelled name was
used throughout the litigation of her case.
Because there appears to be some confusion in the briefs
as to the correct surname of the Parents in these tandem cases,
we take this opportunity to recall the proper usage of Hispanic
names and surnames. As a general rule, according to Spanish
naming conventions, Hispanics typically have two surnames.
The first last name is the father’s family name, and the second
last name is the mother’s paternal family name. A person may
be “known by merely his father’s name, as in English; still in
all formal cases,” or where the father’s name is common, the
mother’s name is often used in addition to the father’s name.
MARATHON MONTROSE RAMSEY, A TEXTBOOK OF
MODERN SPANISH, AS NOW WRITTEN AND SPOKEN IN
CASTILE AND THE SPANISH AMERICAN REPUBLICS 678
(Rev. New York: H. Holt and Co. 1958) (Orig. Publ. 1894); see
also Wendy Squires, A Short Guide to Establishing a
Multilingual Practice, 50 No. 6 PRAC. LAW. 31, 33 (2004).
Here, with respect to Ms. Maria Navarro Carrillo, we assume
based on the record that her father’s last name is “Navarro”
and her mother’s paternal family name is “Carrillo.” Therefore,
for purposes of her legal identification, the last name of Maria
Navarro Carrillo is “Navarro Carrillo,” or just “Navarro.”
Referring to her as “Carrillo,” or to the family as the “Carrillos,”
is incorrect.
4

A48
International Institute for the Brain (“iBRAIN”). On
appeal, the Parents contend that the City is
obligated to pay for the Students’ tuition at iBRAIN
because
iBRAIN’s
educational
program
is
substantially similar to the program that was offered
at iHOPE, which the City consented to and paid for.
The question presented in these cases is one of
first impression: whether under the “stay-put”
provision of the IDEA parents who unilaterally
enroll their child in a new private school and
challenge the child’s IEP are entitled to public
funding for the new school during the pendency of
the IEP dispute, on the basis that the educational
program being offered at the new school is
substantially similar to the program that was last
agreed upon by the parents and the school district
and was offered at the previous school. More
fundamentally stated, we must determine whether
the fact that the school district has authority to
decide how the child’s agreed-upon educational
program is to be provided during the pendency of an
IEP dispute means that the parents also have such
authority.
In the circumstances presented, we conclude, on
de novo review, that parents are not entitled to such
public funding because it is generally up to the
school district to determine how an agreed-upon
program is to be provided during the pendency of the
IEP dispute. Regardless of whether iBRAIN’s
educational program is substantially similar to that
offered previously at iHOPE, the IDEA does not
require the City to fund the Students’ program at
iBRAIN during the pendency of their IEP dispute;
when the Parents unilaterally enrolled the Students

A49
at iBRAIN, the Parents did so at their own financial
risk.
Accordingly, in Ventura de Paulino, we AFFIRM
the May 31, 2019 judgment of the District Court in
favor of the defendant school system; in Navarro
Carrillo, we VACATE the District Court’s June 13,
2019 order granting the application for a
preliminary injunction against the school system
and REMAND the cause with instructions to
dismiss the complaint for failure to state a claim
upon which relief can be granted.5
I. BACKGROUND
A. The IDEA’s Legal Framework
The IDEA authorizes the disbursement of
federal funds to States6 that develop appropriate
plans to, among other things, provide a free and
appropriate public education (“FAPE”) to children
with disabilities.7 To provide a FAPE to each student
A third case presenting the same legal question, see
Mendez v. New York City Department of Education, No. 191852-cv, was argued before this Court on the same day,
January 28, 2020, along with these tandem cases. We have
disposed of the appeal in Mendez by summary order filed
simultaneously herewith, in which we dismiss the case for lack
of appellate jurisdiction. Of course, upon the issuance of the
mandate in Ventura de Paulino and Navarro Carrillo, our
analysis in this opinion will bind the District Court in Mendez.
5

“The term ‘State’ [in the IDEA] means each of the 50
States, the District of Columbia, the Commonwealth of Puerto
Rico, and each of the outlying areas.” 20 U.S.C. § 1401(31).
6

See Arlington Cent. Sch. Dist. Bd. of Educ. v. Murphy,
548 U.S. 291, 295 (2006); see also 20 U.S.C. § 1412(a)(1)(A).
7

A50
with a disability, a school district must develop an
IEP that is “reasonably calculated to enable the child
to receive educational benefits.”8 The IEP must
identify the student’s “particular educational needs .
. . and the services required to meet those needs.”9
The IDEA also requires participating States to
develop an administrative review process for parents
who are dissatisfied with their child’s education and
wish to challenge the adequacy of the child’s IEP.10
To that effect, the State of New York “has
implemented a ‘two-tier system of administrative
review.’”11 In the first tier, a parent can file an
administrative “due process complaint” challenging
the IEP and requesting a hearing before an
impartial hearing officer.12 The party aggrieved by
the hearing officer’s decision may then “proceed to
the second tier, ‘an appeal before a state review
officer.’”13 Once the state review officer makes a final
T.M. ex rel. A.M. v. Cornwall Cent. Sch. Dist., 752 F.3d
145, 151 (2d Cir. 2014) (quoting Bd. of Educ. v. Rowley, 458
U.S. 176, 207 (1982)).
8

Walczak v. Fla. Union Free Sch. Dist., 142 F.3d 119, 122
(2d Cir. 1998).
9

10

20 U.S.C. § 1415(b)(6)–(8).

Mackey ex rel. Thomas M. v. Bd. of Educ. for the
Arlington Cent. Sch. Dist., 386 F.3d 158, 160 (2d Cir. 2004)
(quoting Murphy v. Arlington Cent. Sch. Dist. Bd. of Educ., 297
F.3d 195, 197 (2d Cir. 2002)).
11

Id. (citing N.Y. Educ. Law § 4404(1); 20 U.S.C. §
1415(f)).
12

Id. (quoting Murphy, 297 F.3d at 197) (citing N.Y. Educ.
Law § 4404(2); 20 U.S.C. § 1415(g)).
13

A51
decision, the aggrieved party may seek judicial
review of that decision in a state or federal trial
court.14
At the crux of these cases is a provision in the
IDEA known as the “pendency” or “stay-put”
It
provides
that,
while
the
provision.15
administrative and judicial proceedings are pending
and “unless the school district and the parents agree
otherwise,” a child must remain, at public expense,
“in his or her then-current educational placement.”16
The term “educational placement” refers “only to the
general type of educational program in which the
child is placed”17—i.e., “the classes, individualized
attention and additional services a child will
receive.”18
Parents who are dissatisfied with their child’s
education can “unilaterally change their child’s
placement during the pendency of review
proceedings”19 and can, for example, “pay for private
14

See id. (citing 20 U.S.C. § 1415(i)(2)).

15

See 20 U.S.C. § 1415(j).

Mackey, 386 F.3d at 160 (citing 20 U.S.C. § 1415(j)). The
IDEA’s implementing regulations under federal law, see 34
C.F.R. § 300.514(a) (“Child’s status during proceedings”), and
New York state law, see N.Y. Educ. L. § 4404(4)(a), impose the
same requirement.
16

Concerned Parents v. N.Y. City Bd. of Educ., 629 F.2d
751, 753 (2d Cir. 1980).
17

T.Y. v. N.Y. City Dep’t of Educ., 584 F.3d 412, 419 (2d
Cir. 2009).
18

Sch. Comm. of the Town of Burlington, Mass. v. Dep’t of
Educ. of Mass., 471 U.S. 359, 373–74 (1985) (“Burlington”); see
19

A52
services, including private schooling.”20 They “do so,”
however, “at their own financial risk.”21 They can
obtain retroactive reimbursement from the school
district after the IEP dispute is resolved, if they
satisfy a three-part test that has come to be known
as the Burlington-Carter test.22 A parent can obtain
such reimbursement if: “(1) the school district’s
proposed placement violated the IDEA” by, for
example, denying a FAPE to the student because the
IEP was inadequate; (2)“the parents’ alternative
private placement was appropriate”; and (3)
“equitable considerations favor reimbursement.”23
B.
The
Parties’
Relationship
Administrative Proceedings

and

Ventura de Paulino is the mother of R.P., and
Navarro Carrillo and Garzon are the parents of M.G.
Both Students, R.P. and M.G., are minors with
disabilities stemming from acquired brain injuries,
who are entitled to a FAPE under the IDEA. During
the 2017-2018 academic year, the Students were
unilaterally enrolled by the Parents at iHOPE, a
also Florence Cty. Sch. Dist. Four v. Carter, 510 U.S. 7, 15
(1993) (“Carter”).
T.M., 752 F.3d at 152 (citations omitted); see also R.E. v.
N.Y. City Dep’t of Educ., 694 F.3d 167, 175 (2d Cir. 2012).
20

21

Burlington, 471 U.S. at 374.

E.M. v. N.Y. City Dep’t of Educ., 758 F.3d 442, 451 (2d
Cir. 2014).
22

T.M., 752 F.3d at 152 (citations omitted); see also E.M.,
758 F.3d at 451.
23

A53
private school. The Parents filed due process
complaints alleging that the Students’ IEPs
proposed by the local committee on special education
for that school year was inadequate and that
iHOPE’s IEP was appropriate for the Students.
In both instances—in June 2018 in the case of
R.P., and in April 2018 in the case of M.G.—
impartial hearing officers determined that: (1) the
City had failed to provide the Students with a FAPE
in violation of the IDEA; (2) the Parents’ alternative
placement at iHOPE for the 2017-2018 school year
was appropriate; and (3) equitable considerations
favored reimbursement to the Parents. The
impartial hearing officers ordered the City to
reimburse the Parents for the expenses incurred at
iHOPE during the 2017-2018 school year and
ordered the local committee on special education to
draft a new IEP that incorporates all the items of
iHOPE’s IEP. The City did not appeal.
Following the reimbursement orders, in or
around June 2018, the Parents unilaterally enrolled
the Students at iBRAIN, a newly created private
school, for the 2018-2019 school year. On July 9,
2018, the Students’ first day at iBRAIN, the Parents
filed a due process complaint alleging that the City
continued to fail to provide the Students with a
FAPE for the new school year. In that complaint, the
Parents asked for an order pursuant to the IDEA’s
stay-put provision directing the City to fund the
Students’ placement at iBRAIN during the pendency
of the proceedings.
On November 22, 2018, the impartial hearing
officer in R.P.’s proceeding denied the request for a
pendency order and concluded that, consistent with
the June 2018 administrative order that the City did

A54
not appeal, iHOPE was R.P.’s pendency placement.
Although Ventura de Paulino quickly appealed the
interim decision to a state review officer, she did not
wait for a final decision and filed a complaint in the
district court.
On March 5, 2019, the impartial hearing officer
in M.G.’s proceeding denied the request for a
pendency order on the basis that iBRAIN and
iHOPE were not substantially similar and that
M.G.’s pendency placement remained at iHOPE.
Navarro Carrillo and Garzon did not appeal the
interim decision to a state review officer. Instead,
they too filed their own complaint in the district
court.
C. District Court Proceedings
On January 9, 2019, Ventura de Paulino filed
her complaint seeking, among other things, a
preliminary injunction requiring the City to pay for
R.P.’s iBRAIN tuition and services. On March 20,
2019, the District Court rejected the City’s argument
that Ventura de Paulino was required to exhaust
New York’s two-tier review process, but denied her
application for emergency relief.24 On May 31, 2019,
the District Court granted the City’s motion to
dismiss the complaint for failure to state a claim
upon which relief can be granted, as well as the
motion to dismiss by co-defendant State of New

See Ventura de Paulino v. N.Y. City Dep’t of Educ., No.
19-cv-222 (GBD), 2019 WL 1448088, at *1, 5–7 (S.D.N.Y. Mar.
20, 2019), reconsideration denied sub nom. Ventura De Paulino
v. N.Y. City Dep’t of Educ., No. 19-cv-222 (GBD), 2019 WL
2498206 (S.D.N.Y. May 31, 2019).
24

A55
York.25 Final judgment dismissing the case was
entered on the same day.26
On April 2, 2019, Navarro Carrillo and Garzon
filed their complaint seeking the exact same remedy
sought by Ventura de Paulino. On June 13, 2019,
after concluding that iHOPE and iBRAIN were
substantially similar, the District Court granted the
requested preliminary injunction and vacated the
March 2019 Interim Order by the impartial hearing
officer in M.G.’s proceeding.27 The District Court
ordered the City to pay for M.G.’s education at
iBRAIN during the pendency of M.G.’s FAPE
proceeding.28
These appeals followed. In Navarro Carrillo, the
District Court granted the City’s motion to stay the
order of preliminary injunction pending the City’s
interlocutory appeal.

See Ventura De Paulino v. N.Y. City Dep’t of Educ., No.
19-cv-222 (GBD), 2019 WL 2499204, at *1–3 (S.D.N.Y. May 31,
2019).
25

On appeal, Ventura de Paulino’s reply brief belatedly
objects to the dismissal of the State of New York, but her
failure to raise the objection in her opening brief waived any
challenge to the District Court’s dismissal. See EDP Med.
Computer Sys., Inc. v. United States, 480 F.3d 621, 625 n.1 (2d
Cir. 2007). In any event, any such challenge to the dismissal
would be meritless, since Ventura de Paulino’s complaint does
not plausibly allege any claims against the State of New York,
or even seek any relief from it.
26

Navarro Carrilo v. N.Y. City Dep’t of Educ., 384 F. Supp.
3d 441, 459–65 (S.D.N.Y. 2019).
27

28

Id. at 465.

A56
D. Unfamiliar Litigation and a Curious Set
of Facts
Before proceeding to analyze the Parents’ claims,
we would be remiss not to emphasize the somewhat
unusual set of facts presented in these tandem cases,
which in turn have given rise to an unfamiliar
pattern of IDEA litigation. To our knowledge, these
tandem cases are just two of approximately 23 cases
presenting similar, if not virtually identical, legal
questions in our Court and in the Southern District
of New York. In these cases, the parents or natural
guardians of the students with disabilities
transferred their children from iHOPE to iBRAIN
for the 2018-2019 school year without the City’s
consent and are now claiming that they are entitled
to an order requiring the City to pay for the
educational services at iBRAIN on a pendency basis.
The vast majority, if not all, of these plaintiffs are
represented by the Parents’ counsel in these tandem
cases.
The
arguably
unusual
circumstances
surrounding the mass exodus of students from
iHOPE to iBRAIN were thoroughly described by
Judge Jesse M. Furman of the Southern District of
New York in one of the many iHOPE-to-iBRAINpendency cases.29 It has been alleged that, during
the summer of 2018, there was a “’split between the
While tangential to our disposition of the Parents’ legal
claims, we rely on Judge Furman’s summary as an interesting
backdrop for our analysis set forth below. See Ferreira v. N.Y.
City Dep’t of Educ., No. 19-cv-2937 (JMF), 2020 WL 1158532, at
*2 n.1 (S.D.N.Y. Mar. 6, 2020) (denying the parent’s motion for
summary judgment and application for preliminary injunction,
and granting the City’s cross-motion for summary judgment),
appeal filed No. 20-908-cv (2d Cir. Mar. 13, 2020).
29

A57
original founders and some of the [iHOPE] board’
over whether [iHOPE] should admit students with
disabilities besides traumatic brain injuries,”30 and
that “‘the original founders and some of the
administration w[ere] ousted’ from [iHOPE].”31
Donohue left iHOPE and became the founder and
registered agent of iBRAIN.32 Donohue also happens
to be the founder of the Brain Injury Rights Group,33
the law firm representing the Parents in these
tandem cases and the other plaintiffs seeking public
funding from the City for iBRAIN’s tuition and
related services.
II. DISCUSSION
A. Standard of Review
We review a district court’s grant of a motion to
dismiss a complaint de novo, “credit[ing] all nonconclusory factual allegations in the complaint and
draw[ing] all reasonable inferences in [the plaintiffs’]

Id. (quoting Fiallos v. N.Y. City Dep’t of Educ., No. 19-cv334 (JGK) (S.D.N.Y. Sept. 16, 2019), ECF No. 59, at 6-7, appeal
filed No. 19-1330-cv (2d Cir. May 3, 2019)).
30

Id. (quoting Mendez v. N.Y. City Dep’t of Educ., No. 19CV-2945 (DAB) (S.D.N.Y. Sept. 20, 2019), ECF No. 27, at 6-7,
17, appeal filed No. 19-1852-cv (2d Cir. June 24, 2019)).
31

Id. (quoting Navarro Carrilo, 384 F. Supp. 3d at 447,
450 (alteration omitted)) (citing Docket No. 19-cv-2937, ECF
No. 33, at 11 & n.9, 169).
32

Id. (citing Donohue v. N.Y. City Dep’t of Educ., No. 18CV-9364 (DAB) (S.D.N.Y. Oct. 18, 2018), ECF No. 7, ¶ 8; id.
ECF No. 34, at 2).
33

A58
favor,”34 to determine “whether such allegations and
inferences plausibly indicate [the plaintiffs’]
entitlement to relief.”35 Similarly, “questions of law
decided in connection with requests for preliminary
injunctions . . . receive the same de novo review that
is appropriate for issues of law generally.”36
Ordinarily, to obtain a preliminary injunction,
the movant has to “show (a) irreparable harm and
(b) either (1) likelihood of success on the merits or (2)
sufficiently serious questions going to the merits to
make them a fair ground for litigation and a balance
of hardships tipping decidedly toward the party
requesting the preliminary relief.”37 But where the
IDEA’s stay-put provision is implicated, the
provision triggers the applicability of an automatic
injunction designed to maintain the child’s
educational status quo while the parties’ IEP dispute
is being resolved.38
Loreley Fin. (Jersey) No. 3 Ltd. v. Wells Fargo Sec., LLC,
797 F.3d 160, 171 (2d Cir. 2015) (citing Nielsen v. Rabin, 746
F.3d 58, 62 (2d Cir. 2014)).
34

35

(2009)).

Id. (citing Ashcroft v. Iqbal, 556 U.S. 662, 678–80

Am. Express Fin. Advisors Inc. v. Thorley, 147 F.3d 229,
231 (2d Cir. 1998).
36

Citigroup Glob. Markets, Inc. v. VCG Special
Opportunities Master Fund Ltd., 598 F.3d 30, 35 (2d Cir. 2010).
37

See Zvi D. v. Ambach, 694 F.2d 904, 906 (2d Cir. 1982)
(stating that the stay-put provision “is, in effect, an automatic
preliminary injunction” that “substitutes an absolute rule in
favor of the status quo for the court’s discretionary
consideration of the factors of irreparable harm and either a
likelihood of success on the merits or a fair ground for litigation
and a balance of hardships”); see also Arlington Cent. Sch. Dist.
38

A59
Because we conclude on de novo review that the
Parents’ complaints fail to state a claim upon which
relief can be granted, we need not decide what
standard applies to the Parents’ request for
preliminary injunctive relief.39
B. Exhaustion of Administrative Remedies
The IDEA requires that any available
administrative remedies be exhausted before a
lawsuit is filed in federal court.40 There are,
however, some exceptions to the IDEA’s exhaustion
requirement.41 We have stated in the past that,
v. L.P., 421 F. Supp. 2d 692, 696 (S.D.N.Y. 2006) (“Pendency
has the effect of an automatic injunction, which is imposed
without regard to such factors as irreparable harm, likelihood
of success on the merits, and a balancing of the hardships.”).
Our conclusion that the Parents’ complaints fail to state
a claim is based on our review of the final judgment in Ventura
de Paulino. Because the Parents’ complaints are virtually
identical in all material respects, our affirmance of the
dismissal of Ventura de Paulino’s complaint necessarily means
that Navarro Carrillo and Garzon cannot succeed on the merits
of their pendency claim and that the District Court’s order of
preliminary injunction in their favor must be vacated.
39

See 20 U.S.C. § 1415(i)(2)(A) (providing a cause of action
in federal or state court to any party “aggrieved” by a “final”
decision of either an impartial hearing officer, if the state does
not have an appeals process, or the state review officer, if it
does); accord J.S. v. Attica Cent. Sch., 386 F.3d 107, 112 (2d
Cir. 2004).
40

“[E]xhaustion is not necessary if (1) it would be futile to
resort to the IDEA’s due process procedures; (2) an agency has
adopted a policy or pursued a practice of general applicability
that is contrary to the law; or (3) it is improbable that adequate
relief can be obtained by pursuing administrative remedies.”
41

A60
unless an exception applies, the exhaustion of
administrative remedies under the IDEA is a
“jurisdictional prerequisite”42 of the statute and that
a “plaintiff’s failure to exhaust . . . deprives a court of
subject matter jurisdiction” over any IDEA claims.43
Although we have questioned more recently the
supposed jurisdictional nature of the exhaustion
requirement,44 because we are arguably bound by
those earlier statements and because, in all but the
rarest of cases, we “must determine that [we] have
jurisdiction before proceeding to the merits” of a
claim,45 we first consider the City’s argument that
Murphy, 297 F.3d at 199 (citing Mrs. W. v. Tirozzi, 832 F.2d
748, 756 (2d Cir. 1987)).
42

Id.

Polera v. Bd. of Educ. of Newburgh Enlarged City Sch.
Dist., 288 F.3d 478, 483 (2d Cir. 2002).
43

In Coleman v. Newburgh Enlarged City School District,
we noted that our precedent has not been entirely clear on
whether the IDEA’s exhaustion requirement is a jurisdictional
prerequisite or a mandatory claim-processing rule. 503 F.3d
198, 203 (2d Cir. 2007); accord Paese v. Hartford Life Accident
Ins. Co., 449 F.3d 435, 444 n.2 (2d Cir. 2006). Unlike a
jurisdictional prerequisite, the affirmative defense that a party
has failed to satisfy a mandatory claim-processing rule is
subject to the doctrines of waiver and forfeiture. See Coleman,
503 F.3d at 203. Like in Coleman, however, “we are not forced
to decide whether our precedent [in Polera and Murphy], which
labels the IDEA’s exhaustion requirement as a rule affecting
subject matter jurisdiction rather than an ‘inflexible claimprocessing’ rule that may be waived or forfeited, remains good
law . . . because there can be no claim of waiver or forfeiture
here.” Id. at 204.
44

Lance v. Coffman, 549 U.S. 437, 439 (2007); see also
Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 94 (1998);
45

A61
dismissal is appropriate because the Parents failed
to exhaust their administrative remedies.
The City contends that the Parents were
required to wait for a ruling by a state review officer
before filing their complaints in federal court. But
that argument ignores the fact that where “an action
alleg[es a] violation of the stay-put provision,” such
action “falls within one, if not more, of the
enumerated exceptions” to the IDEA’s exhaustion
requirement.46 That is clearly the case here. The
Parents’ complaints allege that the City’s failure to
pay for the Students’ services at iBRAIN violates the
stay-put provision of the IDEA.
The City also contends that the Parents cannot
rely on the stay-put provision to circumvent the
IDEA’s exhaustion requirement because the City has
not violated the stay-put provision. That argument
also fails, as it conflates the merits inquiry of
whether the Parents have stated a claim upon which
relief can be granted with the arguable threshold
inquiry of whether the Parents needed to exhaust
their administrative remedies. Because the Parents
allege that the City’s failure to pay for the Students’
but see Ctr. for Reprod. Law and Policy v. Bush, 304 F.3d 183,
195 (2d Cir. 2002) (recognizing a discretionary exception to
Steel Co. on the basis that a court, in very rare circumstances,
“may dispose of the case on the merits without addressing a
novel question of jurisdiction”).
Murphy, 297 F.3d at 199; accord Doe v. E. Lyme Bd. of
Educ., 790 F.3d 440, 455 (2d Cir. 2015). As we explained in
Murphy, “given the time-sensitive nature of the IDEA’s stayput provision,” and the amount of time it would take a plaintiff
to exhaust the administrative process, “an immediate appeal is
necessary to give realistic protection to the claimed right.” 297
F.3d at 199 (citation and quotation marks omitted).
46

A62
services at iBRAIN violates the stay-put provision of
the IDEA, the Parents are not required to satisfy the
IDEA’s exhaustion requirement.
C. The IDEA’s Stay-Put Provision
The IDEA’s stay-put provision provides in
relevant part that “during the pendency of any
[administrative and judicial] proceedings conducted
pursuant to this section, unless the [school district] .
. . and the parents otherwise agree, the child shall
remain in the then-current educational placement of
the child.”47 We have interpreted this provision to
require a school district “to continue funding
whatever educational placement was last agreed
upon for the child until the relevant administrative
and judicial proceedings are complete.”48 To that
effect, although we may not have previously stated
the proposition clearly, the IDEA does not authorize
a school district to recoup payments made for
educational services pursuant to the stay-put
provision (i.e., pendency services).49 As reflected in
47

20 U.S.C. § 1415(j).

48

T.M., 752 F.3d at 171 (citing Mackey, 386 F.3d at 163).

See Mackey, 386 F.3d at 160–61, 165–66 (explaining that
school districts are required to pay for a child’s pendency
placement regardless of who prevails in the IEP dispute and
authorizing an award for pendency services even after parents
lost their IEP dispute for the relevant school year). District
courts in this Circuit also have noted repeatedly that “a school
district has no right under the [IDEA] to recoup pendency
tuition payment from a parent.” N.Y. City Dep’t of Educ. v. S.S.,
No. 09-cv-810 (CM), 2010 WL 983719, at *9 (S.D.N.Y. March
17, 2010); see, e.g., N.Y. City Dep’t of Educ. v. V.S., No. 10-cv05120 (JG)(JO), 2011 WL 3273922, at *9 (E.D.N.Y. July 29,
49

A63
the text of the provision and our cases, Congress’s
policy choice was that a child is entitled to remain in
his or her placement at public expense during the
pendency of an IEP dispute, regardless of the merit
of the child’s IEP challenge or the outcome of the
relevant proceedings.50
Where, as here, the stay-put provision is
invoked, our inquiry generally focuses on identifying
the child’s “then-current educational placement,” as
it is the only educational program the school district
is obligated to pay for during the pendency of an IEP
dispute.51 The term “then-current educational
placement” in the stay-put provision typically refers
to the child’s last agreed-upon educational program
before the parent requested a due process hearing to
challenge the child’s IEP.52 Under the IDEA, an
initial placement is made by the school district upon
the consent of the parent.53 A child’s educational
2011); E. Z.-L. ex rel. R.L. v. N.Y. City Dep’t of Educ., 763 F.
Supp. 2d 584, 599 (S.D.N.Y. 2011); C.G. ex rel. B.G. v. N.Y. City
Dep’t of Educ., 752 F. Supp. 2d 355, 361 (S.D.N.Y. 2010);
Murphy v. Arlington Cent. Sch. Dist. Bd. of Educ., 86 F. Supp.
2d 354, 367 n.9 (S.D.N.Y. 2000).
See Mackey, 386 F.3d at 160–61; see also Susquenita
Sch. Dist. v. Raelee S., 96 F.3d 78, 83 (3d Cir. 1996), cited with
approval in Mackey, 386 F.3d at 161.
50

51

See Mackey, 386 F.3d at 163; Zvi D., 694 F.2d at 906.

See, e.g., T.M., 752 F.3d at 171; Mackey, 386 F.3d at 163;
Zvi D., 694 F.2d at 906.
52

20 U.S.C. § 1415(j) (“[I]f applying for initial admission to
a public school, [the child] shall, with the consent of the
parents, be placed in the public school program until all such
proceedings have been completed.”).
53

A64
placement (or program) may be changed if, for
example, the school district and the parents agree on
what the new placement should be. The placement
can also be changed if an impartial hearing officer or
state review officer finds the parents’ new placement
to be appropriate by adjudicating the IEP dispute in
the parents’ favor, and the school district chooses not
to appeal the decision.54 Accordingly, implicit in the
concept of “educational placement” in the stay-put
provision (i.e., a pendency placement) is the idea
that the parents and the school district must agree
either expressly or as impliedly by law to a child’s
educational program.
When the impartial hearing officers in these
tandem cases concluded that iHOPE was an
appropriate placement for the Students and the City
chose not to appeal the ruling to a state review
officer, the City consented, by operation of law, to
the Students’ private placement at iHOPE. At that
moment, the City assumed the legal responsibility to
pay for iHOPE’s educational services to the Students
as the agreed-upon educational program that must
be provided and funded during the pendency of any
IEP dispute. What is in dispute here, however, is
whether the stay-put provision requires the City to
pay for the educational services being provided to
the Students at the new school, iBRAIN.
The stay-put provision does not guarantee a
child with a disability “the right to remain in the
exact same school with the exact same service
See Mackey, 386 F.3d at 163; see also Bd. of Educ. v.
Schutz, 290 F.3d 476, 484 (2d Cir. 2002) (“[O]nce the parents’
challenge [to a proposed IEP] succeeds . . ., consent to the
private placement is implied by law, and the requirements of §
1415(j) become the responsibility of the school district.”).
54

A65
providers while his administrative and judicial
proceedings are pending. Instead, it guarantees only
the same general level and type of services that the .
. . child was receiving.”55
With this in mind, the Parents first argue that,
because the educational program offered at iBRAIN
is arguably substantially similar to that offered at
iHOPE, the decision of the Parents to move the
Students to iBRAIN did not change the placement
for which the City is required to pay. In the
alternative, the Parents argue that the Students’
operative placement is at iBRAIN, since that is
where the Students were enrolled at the time that
the Parents initiated the administrative proceedings
challenging the Students’ IEPs for the 2018-2019
school year.
The Parents’ arguments focus on identifying the
pendency placement that the Students are entitled
to receive—the inquiry that, as stated above,
typically underlies most pendency disputes. The
parties’ dispute requires us, however, to answer a
different question: Does the fact that the City retains
authority to determine how the Students’ pendency
services are to be provided mean that the Parents
may also exercise that authority?
1. The Parents’ Primary Argument
The Parents’ argument that the Students’ new
enrollment at iBRAIN did not constitute a change in
the Students’ pendency placement is misplaced. In
Concerned Parents v. New York City Board of
Education, we concluded, albeit in a different
T.M., 752 F.3d at 171 (citing Concerned Parents, 629
F.2d at 753, 756).
55

A66
context, that the City’s transfer of children with
disabilities in special education classes at one school
to substantially similar classes at other schools
within the same school district did not result in a
change to the students’ educational placement.56
That conclusion, however, offers no solace to the
Parents’ pendency claims here.
Underlying the Parents’ primary argument is
the assumption that because a school district can
move a child to a new school that offers the same
general level and type of services without violating
the IDEA’s stay-put provision, a parent is likewise
authorized to invoke the stay-put provision to
require the school district to pay for a new school
identified by the parent so long as the new school
offers substantially similar educational services. Not
so.
For the reasons stated below, it is the City, not
the Parents, that is authorized to decide how (and
where) the Students’ pendency services are to be
provided.
a. First Reason: The IDEA’s Text and
Structure
We start by recognizing the well-settled principle
that “[b]y and large, public education in our Nation
is committed to the control of the state and local
authorities.”57 By choosing to accept federal funds
See Concerned Parents, 629 F.2d at 756 (rejecting claim
that there had been a change in the children’s educational
placement that triggered prior notice and hearing
requirements).
56

57

Epperson v. Arkansas, 393 U.S. 97, 104 (1968).

A67
under the IDEA, participating States do not
relinquish their control over public education,
including their authority to determine the
educational programs of students.58 Nor do States
agree to the wholesale transfer of that authority to
the parents of children with disabilities. Rather, by
accepting federal funds, States primarily agree to
establish procedures to ensure that a FAPE is
provided to children with disabilities.59 One of those
“procedural safeguards”60 is the right to pendency
services under the stay-put provision.61
The stay-put provision therefore was enacted as
a procedural safeguard in light of the school district’s
broad authority to determine the educational
program of its students. The provision limits that
authority by, among other things, preventing the
school district from unilaterally modifying a
student’s educational program during the pendency
See Tilton v. Jefferson Cty. Bd. of Educ., 705 F.2d 800,
804 (6th Cir. 1983) (“Congress did not compel, as the price for
federal participation in the education for the handicapped, a
wholesale transfer of authority over the allocation of
educational resources from the duly elected or appointed state
and local boards to the parents of individual handicapped
children.”), cited with approval in Fallis v. Ambach, 710 F.2d
49, 56 (2d Cir. 1983).
58

20 U.S.C. § 1415(a) (“Any State educational agency,
State agency, or local educational agency that receives
assistance under this subchapter shall establish and maintain
procedures in accordance with this section to ensure that
children with disabilities and their parents are guaranteed
procedural safeguards with respect to the provision of a free
appropriate public education by such agencies.”).
59

60

Id. § 1415 (entitled, “Procedural Safeguards”).

61

See id. § 1415(j).

A68
of an IEP dispute. It does not eliminate, however,
the school district’s preexisting and independent
authority to determine how to provide the mostrecently-agreed-upon educational program. As we
have recognized, “[i]t is up to the school district,” not
the parent, “to decide how to provide that
educational program [until the IEP dispute is
resolved], so long as the decision is made in good
faith.”62
If a parent disagrees with a school district’s
decision on how to provide a child’s educational
program, the parent has at least three options under
the IDEA: (1) The parent can argue that the school
district’s decision unilaterally modifies the student’s
pendency placement and the parent could invoke the
stay-put provision to prevent the school district from
doing so; (2) The parent can determine that the
agreed-upon educational program would be better
provided somewhere else and thus seek to persuade
the school district to pay for the program’s new
services on a pendency basis; or (3) The parent can
determine that the program would be better
provided somewhere else, enroll the child in a new
school, and then seek retroactive reimbursement
from the school district after the IEP dispute is
resolved.
That said, what the parent cannot do is
determine that the child’s pendency placement
would be better provided somewhere else, enroll the
child in a new school, and then invoke the stay-put
provision to force the school district to pay for the
new school’s services on a pendency basis. To hold
otherwise would turn the stay-put provision on its
T.M., 752 F.3d at 171 (citing Concerned Parents, 629
F.2d at 756).
62

A69
head, by effectively eliminating the school district’s
authority to determine how pendency services
should be provided.
Here, the Parents’ pendency claims seek to do
exactly that. The Parents and the City had agreed
that the Students’ educational program would be
provided at iHOPE. When apparently dissatisfied
with unspecified changes to iHOPE’s “management”
and “philosophy,” the Parents unilaterally decided
that iBRAIN was a better school for the Students.63
The Parents are certainly entitled to make that
decision for the benefit of their children, but in
claiming that the City must continue to pay for
iBRAIN’s services on a pendency basis, the Parents
effectively “seek a ‘veto’ over school choice rather
than ‘input’—a power the IDEA clearly does not
grant them.”64 Regardless of whether the
educational program that the Students are receiving
at iBRAIN is substantially similar to the one offered
at iHOPE, when the Parents unilaterally enrolled
the Students at iBRAIN for the 2018-2019 school
year, they did so at their own financial risk.65
At oral argument, counsel for the Parents generally
attributed the exodus of students from iHOPE to iBRAIN to
“changes in the management” and “philosophy” of iHOPE.
63

64

T.Y., 584 F.3d at 420.

We do not consider here, much less resolve, any question
presented where the school providing the child’s pendency
services is no longer available and the school district either
refuses or fails to provide pendency services to the child. Those
circumstances are not present here. We note, however, that at
least one of our sister Circuits has acknowledged that, under
certain extraordinary circumstances not presented here, a
parent may seek injunctive relief to modify a student’s
placement pursuant to the equitable authority provided in 20
65

A70
b. Second Reason: Cost of Pendency
Services
As a practical matter, it makes sense that it is
the party generally responsible for paying a
student’s agreed-upon educational program—here,
the City—who determines how the pendency
services are to be provided. That is so for two
reasons: (i) public funding for pendency services can
never be recouped; and (ii) the cost of educational
services in schools can vary dramatically.
i. Recoupment versus
reimbursement
One can imagine circumstances in which a
school district pays on a pendency basis for the
educational services of a private school selected
unilaterally by the parents, after which a court
decides in the school district’s favor, by holding that
the parents’ unilateral transfer modified the child’s
pendency placement, or that the school district’s
proposed IEP would have afforded the child a
FAPE.66 In these circumstances, the school district

U.S.C. § 1415(i)(2)(B)(iii). See Wagner v. Bd. of Educ. of
Montgomery Cty., 335 F.3d 297, 302–03 (4th Cir. 2003)
(involving a situation in which the pendency placement was no
longer available, and the school district had failed to propose
an alternative, equivalent placement).
Cf. S.S., 2010 WL 983719, at *1 (rejecting claim by the
City that it is entitled to be reimbursed for the payments made
“to advance the child[’s] . . . private school tuition during
hearing and appeal process” pursuant to the stay-put provision
in light of the state review officer’s final decision that the IEP
66

A71
would have no recourse under the IDEA to recoup
the sums it expended on the child.67 By contrast, if
the school district were found to have unilaterally
modified the child’s placement, the parent could seek
injunctive relief against the school district for
violating the IDEA.68
ii. Difference in educational costs
Dramatically different costs may be presented
when parents unilaterally choose to enroll their child
in a new school. Indeed, the cost of providing
pendency services in the new school may be
substantially higher than the cost of providing those
services at the previous school.69 Nothing in the

“proposed for the child would have afforded him a” FAPE for
the relevant school year).
See ante, note 49. This did not happen here only because
the District Court in Navarro Carrillo granted the City’s
motion to stay the order granting the application for a
preliminary injunction.
67

Cf. T.M., 752 F.3d at 172 (authorizing limited
reimbursement to parents in light of, among other things, the
fact that the school district refused to provide the child
pendency services in the first instance); Mackey, 386 F.3d at
165–66 (authorizing reimbursement for pendency services even
after parents lost their IEP dispute for the relevant school
year).
68

In these cases, neither the City nor the Parents
presented any evidence in the record about the cost of iBRAIN’s
services and how they compare to the cost of similar services at
iHOPE. At oral argument, however, counsel for the City
informed us, without contradiction, that the cost of attending
iBRAIN was significantly higher, and that the Parents had
69

A72
statutory text or legislative history of the IDEA,
however, “implies a legislative intent to permit” the
parents of children with disabilities “to utilize the
[stay-put provision’s] automatic injunctive procedure
. . . to frustrate the fiscal policies of participating
states.”70
c. Third Reason: Uncertainty of
Litigation
The Parents’ pendency claims seek to upend the
educational status quo that the stay-put provision
was enacted to protect. Under the Parents’ theory,
litigation at the outset of an IEP dispute seems
inevitable. The parties will need to rush to court to
obtain a ruling on an emergency basis on whether
the new school selected by the parent offers a
program that is substantially similar to the program
offered at the prior agreed-upon school. A provision
that guarantees the right of a child to stay put can
hardly justify the uncertainty inherent in a race to
the courthouse.
2. The Parents’ Alternative Argument
The Parents also argue that the City must pay
for iBRAIN’s services on a pendency basis because it
is the Students’ “operative placement” at the time
when the IEP proceedings were initiated. That
argument fails for all of the reasons stated above. A
parent cannot unilaterally transfer his or her child
disavowed the City’s transportation arrangement at iHOPE in
favor of a private transportation service arranged by iBRAIN.
70

Fallis, 710 F.2d at 56 (quoting Tilton, 705 F.2d at 804).

A73
and subsequently initiate an IEP dispute to argue
that the new school’s services must be funded on a
pendency basis. That argument effectively renders
the stay-put provision meaningless by denying any
interest of a school district in resolving how the
student’s agreed-upon educational program must be
provided and funded.
It bears recalling that the term “operative
placement” has its origin in cases where the school
district attempts to move the child to a new school
without the parents’ consent,71 or where there is no
previously implemented IEP so that the current
placement provided by the school district is
considered to be the pendency placement for
purposes of the stay-put provision.72 Neither
circumstance is presented here.
*

*

*

Although the stay-put provision prevents a
school district from modifying a student’s pendency
placement without the parents’ consent, it does not
prohibit the school district from determining how,
and where, a student’s pendency placement should
be provided. The Parents and the City had agreed
that the Students’ pendency placement should be
provided at iHOPE. When the Parents enrolled the
Students at iBRAIN, they did so at their own
financial risk; the Parents cannot determine
unilaterally how the Students’ educational program
Drinker v. Colonial Sch. Dist., 78 F.3d 859, 867 (3d Cir.
1996), cited with approval in Mackey, 386 F.3d at 163.
71

Thomas v. Cincinnati Bd. of Educ., 918 F.2d 618, 625–26
(6th Cir. 1990).
72

A74
is to be provided at the City’s expense. The Parents
having failed to plausibly allege a violation of the
stay-put provision and an entitlement to a pendency
order requiring the City to pay for iBRAIN’s
services, they may obtain retroactive reimbursement
for their expenses at iBRAIN only if they are able to
satisfy the three-factor Burlington-Carter test after
their IEP disputes are resolved. That question, if
ever presented, is one that we leave for another day.
III. CONCLUSION
To summarize, we conclude that:
(1) An action that alleges a violation of the stayput provision falls within one or more of the
exceptions to the exhaustion-of-administrativeremedies requirement of the Individuals with
Disabilities Education Act (“IDEA”).
(2) Because the Parents’ complaints allege that
the City’s failure to pay for the Students’ educational
services at the International Institute for the Brain
(“iBRAIN”) violates the IDEA’s stay-put provision,
the Parents were not required to exhaust their
administrative remedies.
(3) The stay-put provision of the IDEA, which
was enacted to limit a school district’s broad
authority to determine or modify a child’s
educational program without the parent’s consent,
does not eliminate the school district’s authority to
determine how, and where, a student’s agreed-upon
educational program is to be provided at public
expense during the pendency of a parental challenge
to the student’s individualized education program
(“IEP”) dispute.

A75
(4) The fact that the City retains authority to
determine how and where the Students’ mostrecently-agreed-upon educational program is to be
provided during the pendency of the Students’ IEP
disputes does not mean that the Parents may
exercise similar authority. The Parents are not
entitled to receive public funding under the stay-put
provision for a new school on the basis of its
purported substantial similarity to the last agreedupon placement.
(5) Accordingly, regardless of whether iBRAIN
provided the Students’ last agreed-upon educational
program in a manner substantially similar to
iHOPE, when the Parents unilaterally enrolled the
Students at iBRAIN, the Parents did so at their own
financial risk.
For the foregoing reasons, the District Court’s
May 31, 2019 judgment in Ventura de Paulino is
AFFIRMED; the District Court’s June 13, 2019
order granting the application for preliminary
injunction in Navarro Carrillo is VACATED and the
cause in Navarro Carrillo is REMANDED with
instructions to dismiss the complaint for failure to
state a claim upon which relief can be granted.

A76
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
________________________________________
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 5th day of
November, two thousand twenty.
________________________________________
Dorothy Neske, Individually and as Parent and
Natural Guardian of A.N., Christopher Neske,
Individually and as Parent and Natural Guardian
of A.N.,
Plaintiffs - Appellants,
v.
New York City Department of Education,
Defendant - Appellee.
________________________________________
ORDER
Docket No: 19-4068
Appellants, Christopher Neske and Dorothy
Neske, filed a petition for panel rehearing, or, in the
alternative, for rehearing en banc. The panel that
determined the appeal has considered the request
for panel rehearing, and the active members of the
Court have considered the request for rehearing en
banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

